<html>
<title> - TSA INTEGRITY CHALLENGES: EXAMINING MISCONDUCT BY AIRPORT SECURITY PERSONNEL</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                TSA INTEGRITY CHALLENGES: EXAMINING 
              MISCONDUCT BY AIRPORT SECURITY PERSONNEL

=======================================================================


                             JOINT HEARING

                               before the

                     SUBCOMMITTEE ON OVERSIGHT AND

                         MANAGEMENT EFFICIENCY

                                and the

                            SUBCOMMITTEE ON

                        TRANSPORTATION SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 31, 2013

                               __________

                           Serial No. 113-29

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________




                  U.S. GOVERNMENT PRINTING OFFICE
86-032                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Tulsi Gabbard, Hawaii
Lou Barletta, Pennsylvania           Filemon Vela, Texas
Chris Stewart, Utah                  Steven A. Horsford, Nevada
Richard Hudson, North Carolina       Eric Swalwell, California
Steve Daines, Montana
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Mark Sanford, South Carolina
                       Greg Hill, Chief of Staff
          Michael Geffroy, Deputy Chief of Staff/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

          SUBCOMMITTEE ON OVERSIGHT AND MANAGEMENT EFFICIENCY

                 Jeff Duncan, South Carolina, Chairman
Paul C. Broun, Georgia               Ron Barber, Arizona
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Richard Hudson, North Carolina       Beto O'Rourke, Texas
Steve Daines, Montana                Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
               Ryan Consaul, Subcommittee Staff Director
                   Deborah Jordan, Subcommittee Clerk
           Tamla Scott, Minority Subcommittee Staff Director

                                 ------                                

                SUBCOMMITTEE ON TRANSPORTATION SECURITY

                Richard Hudson, North Carolina, Chairman
Mike Rogers, Alabama                 Cedric L. Richmond, Louisiana
Candice S. Miller, Michigan          Sheila Jackson Lee, Texas
Lou Barletta, Pennsylvania           Eric Swalwell, California
Susan W. Brooks, Indiana             Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
               Amanda Parikh, Subcommittee Staff Director
                    Dennis Terry, Subcommittee Clerk


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Jeff Duncan, a Representative in Congress From the 
  State of South Carolina, and Chairman, Subcommittee on 
  Oversight and Management Efficiency:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Ron Barber, a Representative in Congress From the 
  State of Arizona, and Ranking Member, Subcommittee on Oversight 
  and Management Efficiency:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
The Honorable Richard Hudson, a Representative in Congress From 
  the State of North Carolina, and Chairman, Subcommittee on 
  Transportation Security:
  Oral Statement.................................................     7
  Prepared Statement.............................................     8
The Honorable Cedric L. Richmond, a Representative in Congress 
  From the State of Louisiana, and Ranking Member, Subcommittee 
  on Transportation Security:
  Oral Statement.................................................     9
  Prepared Statement.............................................    11
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................    12
  Prepared Statement.............................................    14

                               Witnesses

Mr. John W. Halinski, Deputy Administrator, Transportation 
  Security Administration, Department of Homeland Security:
  Oral Statement.................................................    16
  Prepared Statement.............................................    18
Mr. Stephen M. Lord, Director, Forensic Audits and Investigative 
  Services, Government Accountability Office:
  Oral Statement.................................................    20
  Prepared Statement.............................................    21
Ms. Deborah L. Outten-Mills, Acting Assistant Inspector General 
  for Inspections, Office of Inspector General, Department of 
  Homeland Security:
  Oral Statement.................................................    24
  Prepared Statement.............................................    26


  TSA INTEGRITY CHALLENGES: EXAMINING MISCONDUCT BY AIRPORT SECURITY 
                               PERSONNEL

                              ----------                              


                        Wednesday, July 31, 2013

     U.S. House of Representatives,        
      Committee on Homeland Security,      
             Subcommittee on Oversight and 
                 Management Efficiency, and
           Subcommittee on Transportation Security,
                                            Washington, DC.
    The subcommittees met, pursuant to call, at 10:00 a.m., in 
Room 311, Cannon House Office Building, Hon. Jeff Duncan 
[Chairman of the Subcommittee on Oversight and Management 
Efficiency] presiding.
    Present: Representatives Duncan, Hudson, Rogers, Miller, 
Barletta, Daines, Brooks, Thompson, Jackson Lee, Richmond, 
Barber, and Payne.
    Also present: Representative Mica.
    Mr. Duncan. The Committee on Homeland Security, 
Subcommittees on Oversight and Management Efficiency and 
Transportation Security will come to order. It is a joint 
hearing today with Members from both subcommittees. The purpose 
of this hearing is to examine the misconduct by airport 
security screening personnel and the effects that misconduct 
has on the integrity of TSA. I now recognize myself for an 
opening statement.
    The Transportation Security Administration was created 
after the horrific terrorist attacks of September 11, 2001, in 
an effort to strengthen the security of our Nation's 
transportation systems, especially our airports. Considering 
the nature of the attacks and the other terrorist attempts, 
like the 2009 Christmas day underwear bomber, the 2001 shoe 
bomb plot, the American public looks to TSA to keep them safe 
while flying.
    However, with countless TSA misconduct cases spread 
throughout the country, confidence in airport security is 
quickly waning. For example, in 2011 a transportation security 
officer at Newark Airport pleaded guilty to stealing thousands 
of dollars in cash and other valuables from unsuspecting 
travelers. In March of this year, a wanted rape suspect made 
his way through a security checkpoint at JFK carrying a 3,800K-
volt stun gun, which is definitely on the list of banned items 
for airplane travel.
    In February this year, TSA improperly detained a 3-year-old 
disabled wheelchair-bound girl, suffering from spina bifida, on 
her way to Disney World with her family. It is a terrible 
YouTube video to watch that reminds us of some of these 
incidents. This instance specifically was heartbreaking. TSA 
must do more to focus on the true threats and stop the invasive 
screening of low-risk travelers.
    The TSA lists integrity as one of its core values, but 
unfortunately integrity has been lost in many cases. When 
workers on the front line fail to live up to TSA's established 
guiding principles and standards of conduct, management must 
step up and hold individuals accountable. TSA created the 
Office of Professional Responsibility to promote timeliness, 
accountability, and consistency within the disciplinary 
process. However, according to the Government Accountability 
Office's--GAO--report on TSA misconduct that was just released 
yesterday, timeliness, accountability, and consistency are 
still major issues for TSA when misconduct arises.
    For example, while TSA has established standards for 
investigating and adjudicating misconduct cases, TSA does not 
track how long it takes to complete and adjudicate 
investigations. As a result, TSA could miss systemic problems 
across airports, allowing misconduct to go unchecked. 
Furthermore, according to TSA data, out of 56 cases of theft 
from fiscal years 2010 through 2012, 31 resulted in 
termination, 11 resulted in letters of reprimand, 11 resulted 
in suspension of a defined period, and 2 resulted in indefinite 
suspension, and 1 resulted in resignation. Stealing is 
stealing, and these are incidents of stealing from American 
travelers.
    According to recommended penalty range on TSA's table of 
offenses and penalties for theft or unauthorized taking, a 
letter of reprimand is not included. Additionally, when 
questioned by the former Transportation Security Subcommittee 
Chairman last year, Deputy Administrator Halinski stated that, 
and I will quote: ``When we have personnel that have committed, 
let us say, stealing, drugs, or lack of security that we can 
immediately identify, those personnel are terminated. They are 
walked out the door.''
    Well, which is it Deputy Administrator? Are they removed 
from employment or sent home with a slap on the wrist? I would 
hope that a Federal employee that engages in theft of trusting 
American travelers would be disciplined with more than just a 
letter. These statistics tell the American people that TSA 
isn't terribly concerned if its employees steal from the 
traveling public. TSA should have no tolerance for such 
behavior. The American people demand accountability.
    In addition, of the 1,936 cases in fiscal year 2012 that 
fall in the misconduct category of screening and security, 
around 4 percent of those cases involve sleeping while engaged 
in security-related duties. I believe that is about 77 cases, 
and I will tell you, that is 77 cases too many.
    Yet, rather than punishing these employees using standard 
penalties, TSA chose to go easy on those who find it hard to 
stay awake while protecting the American people. GAO reported 
that about half of the penalties for sleeping on duty didn't 
even fall into the recommended range, which is a 2-week 
suspension to termination. Instead, half of the cases were 
resolved with a reprimand letter or a 1- to 3-day suspension.
    Unfortunately, this is symptomatic of the larger problem. 
According to GAO's analysis of fiscal year 2012 data on 
screening and security offenses that include failing to follow 
standard operating procedures, sleeping on duty, and allowing 
individuals to bypass screening, again, 1,936 cases, 55 percent 
of the offenses result in a letter of reprimand even though a 
letter of reprimand is not part of the recommended penalty 
range for any of those offenses. So where is the consistency?
    While I know that there are many thousands of hard-working, 
dedicated employees working at airports throughout the country, 
and it is unfair to generalize to the whole workforce, 
unfortunately, a few bad apples can ruin the bunch. These 
findings are especially hard to stomach since so many Americans 
today are sick of being groped, interrogated, and treated like 
criminals when passing through checkpoints. If integrity is 
truly a core value, then, TSA, it is time to prove it. Stop 
with the napping, the stealing, the tardiness, and the 
disrespect, and earn Americans' trust and confidence. 
Disciplinary action should be standardized, tracked, and 
processed in a timely manner so that the agency can compare 
performance Nation-wide, analyze significant differences in 
data, and make changes where changes are due, whether that is 
through additional training or stricter enforcement of policies 
and procedures.
    The TSA plays a vital role in the security of our country 
and it is time that the American people look to TSA favorably 
instead of with disdain and distrust. One important step in 
achieving this is to fully respect American civil liberties 
when flying.
    I appreciate the participation of our distinguished 
witnesses here today, and I am eager to hear about the 
Transportation Security Administration's process and progress 
for handling misconduct cases within its workforce. It is 
critical that our airports are secure and that the tarnished 
reputation of the agency is turned around and the traveling 
public can once again trust and appreciate those working the 
front lines to keep our country safe.
    The Chairman will now recognize the Minority leader of the 
subcommittee, the gentleman from Arizona, Mr. Barber, for an 
opening statement that he may have.
    [The statement of Chairman Duncan follows:]
                   Statement of Chairman Jeff Duncan
                             July 31, 2013
    The Transportation Security Administration (TSA) was created after 
the horrific terrorist attacks of September 11, 2001 in an effort to 
strengthen the security of our Nation's transportation systems, 
especially our airports. And considering the nature of the attacks, and 
other terrorist attempts, like the 2009 Christmas day underwear bomber 
and the 2001 shoe bomb plot, the American public looks to the TSA to 
keep them safe when flying.
    However, with countless TSA misconduct cases spread throughout the 
country, confidence in airport security is quickly waning. For example, 
in 2011, a Transportation Security Officer at Newark Airport pleaded 
guilty to stealing thousands of dollars in cash and other valuables 
from unsuspecting travelers. In March of this year, a wanted rape 
suspect made his way through the security checkpoint at JFK carrying a 
3,800K-volt stun-gun, which is definitely on the list of banned items 
for airplane travel. And, in February of this year, TSA improperly 
detained a 3-year-old disabled, wheelchair-bound child suffering from 
spina bifida on her way to Disney World with her family. This instance 
specifically was heart-breaking. TSA must do more to focus on the true 
threats and stop with invasive screening of low-risk travelers.
    The TSA lists ``Integrity'' as one of its core values, but 
unfortunately, integrity has been lost in many cases. When workers on 
the front line fail to live up to TSA's established guiding principles 
and standards of conduct, management must step up and hold individuals 
accountable.
    TSA created the Office of Professional Responsibility to promote 
timeliness, accountability, and consistency in the disciplinary 
process. However, according to the Government Accountability Office's 
(GAO) report on TSA misconduct that was just issued yesterday, 
timeliness, accountability, and consistency are still major issues for 
TSA when misconduct arises. For example, while TSA has established 
standards for investigating and adjudicating misconduct cases, TSA does 
not track how long it takes to complete and adjudicate investigations. 
As a result, TSA could miss systemic problems across airports allowing 
misconduct to go unchecked.
    Furthermore, according to TSA data, out of 56 cases of theft or 
unauthorized taking from fiscal years 2010-2012, 31 resulted in 
termination, 11 resulted in letters of reprimand, 11 resulted in 
suspension of a defined period, 2 resulted in indefinite suspension, 
and 1 resulted in resignation. According to the recommended penalty 
range on TSA's Table of Offenses and Penalties for theft/unauthorized 
taking, a letter of reprimand is not included. Additionally, when 
questioned by the former Transportation Security Subcommittee Chairman 
last year, Deputy Administrator Halinski stated that ``when we have 
personnel that have committed, let us say, stealing, drugs, or lack of 
security that we can immediately identify, those personnel are 
terminated. They are walked out the door.'' Well, which is it, Deputy 
Administrator? Are they removed from employment or sent home with a 
slap on the wrist? I would hope that a Federal employee that engages in 
theft of trusting travelers would be disciplined more than with just a 
letter. These statistics tell the American people that TSA isn't 
terribly concerned if its employees steal from the traveling public. 
TSA should have no tolerance for such behavior. The American people 
demand accountability.
    In addition, of the 1,936 cases in fiscal year 2012 that fall in 
the misconduct category of ``Screening and Security,'' around 4 percent 
of those cases involved sleeping while engaged in security-related 
duties. I believe that's about 77 cases. That's 77 cases too many. Yet 
rather than punishing these employees using the standard penalties, TSA 
chose to go easy on those who find it hard to stay awake while 
protecting the American people. GAO reported that about half of the 
penalties for sleeping on duty didn't even fall into the recommended 
range (which is a 2-week suspension to termination). Instead, half of 
the cases were resolved with a reprimand letter or 1- to 3-day 
suspension.
    Unfortunately, this is symptomatic of the larger problem. According 
to GAO's analysis of the fiscal year 2012 data on ``Screening and 
Security'' offenses that include failing to follow standard operating 
procedures, sleeping on duty, and allowing individuals to bypass 
screening--again of 1,936 cases, 55 percent of the offenses resulted in 
a letter of reprimand even though a letter of reprimand is not part of 
the recommended penalty range for any of those offenses. Where is the 
consistency?
    While I know there are many--thousands--of hard-working, dedicated 
employees working at airports throughout the country, and it's unfair 
to generalize to the whole workforce, unfortunately, a few bad apples 
can ruin the bunch. These findings are especially hard to stomach since 
so many Americans today are sick of being groped, interrogated, and 
treated like criminals when passing through checkpoints. If 
``Integrity'' is truly a core value, then, TSA, prove it. Stop with the 
napping, the stealing, the tardiness, and the disrespect. Earn 
Americans' trust and confidence.
    Disciplinary actions should be standardized, tracked, and processed 
in a timely manner so that the agency can compare performance Nation-
wide, analyze significant differences in data and make changes where 
changes are due--whether that's through additional training or stricter 
enforcement of policies and procedures. The TSA plays a vital role in 
the security of our country and it's time the American people look to 
TSA favorably instead of with disdain and distrust. One important step 
to achieving this is to fully respect Americans' civil liberties when 
flying.
    I appreciate the participation of our distinguished witnesses here 
today and am eager to hear about the Transportation Security 
Administration's process and progress for handling misconduct cases 
within its workforce. It is critical that our airports are secure and 
that the tarnished reputation of the agency is turned around and the 
traveling public once again trust and appreciate those working the 
front lines to keep our country safe.

    Mr. Barber. Well, thank you, Chairman Duncan, for convening 
this hearing, and it is a critical area that we are examining 
today because the American public every single day, the flying 
public at least, deals with the TSA officers, and we need to 
make sure that they are treated properly.
    In the aftermath of September 11, 2001, those terrorist 
attacks resulted in the formation or creation of the 
Transportation Security Administration, and the main purpose 
was to protect air travel and keep the traveling public safe. 
In order to implement its mission, the TSA employs thousands of 
TSOs, transportation security officers, and on a daily basis 
screen almost 2 million passengers at 450 airports throughout 
the United States.
    These dedicated and hard-working civil servants perform 
their duties in the face of frustration. I have seen it in my 
many travels back and forth between my home and Washington, 
face frustration from weary travelers and critics of the TSA's 
often-changing policies. They serve as our front line of 
defense in aviation security and we rely on them and the 
technology that they use to keep us safe from harm.
    As I mentioned, I have now been in Congress for 1 year. I 
fly back home almost every weekend. I have gone through TSA 
security lines at least 100 times in this last year. I would 
have to say that I look and observe what is going on around me 
with other passengers, and almost always, with few exceptions, 
the public is treated with respect and professionalism. But 
there are problems that remain.
    According to media reports, from December 2010 through 
February 2013, 108 transportation security officers have been 
arrested and 93 crimes related to their employment have been 
committed. According to the GAO, from 2010 through 2012, the 
annual number of TSA misconduct cases increased from 2,691 to 
3,408. The GAO also reported that 1,936, or 20 percent of the 
aforementioned misconduct cases, were classified as security 
and screening violations. These pertain to incidents that do 
not include conducting security or equipment checks and 
allowing people or baggage to bypass the screening.
    TSA's most important responsibility is to ensure the safety 
and the security of travelers in a professional manner. We 
cannot allow one bag or one person to go unscreened. This 
percentage of unscreened baggage and people is absolutely 
unacceptable.
    When compared to the TSA workforce in total, which numbers 
more than 55,000 employees, the overall misconduct numbers 
indicate that around 6 percent of TSA's employees were involved 
in wrongdoing. These statistics clearly show that more work can 
and must be done to properly train and effectively hire 
transportation security officers.
    It should be noted that this data from the GAO also 
indicates that the vast majority of TSO, transportation 
security officers, are law-abiding citizens and professional in 
carrying out their most important duties and fulfilling the 
mission of the Department of Homeland Security.
    According to GAO, TSA has made some progress in improving 
the professionalism and accountability of its workforce. For 
example, having a table of offenses with clearly-defined ranges 
of penalties ensures that consistency and fairness exist in 
what was previously a very ad hoc, arbitrary process. 
Furthermore, the creation of TSA Office of Professional 
Responsibility has resulted in reduced backlog of cases and 
quicker decisions for employees waiting to resolve their 
matters. The TSA has also added additional training classes for 
its airport-based personnel so that managers and supervisors 
are better able to identify and investigate misconduct.
    While these steps are good and important, they do not rule 
out the need for the TSA to improve weaknesses that still exist 
in the agency. Risks or weaknesses such as ensuring that 
misconduct cases are recorded in TSA's centralized database, 
and making sure--making sure--that misconduct cases are 
properly handled in accordance with TSA policies and 
procedures.
    Furthermore, when addressing misconduct, Congress and TSA 
have a responsibility to ensure proper oversight over the 
entire TSA workforce, including management and supervisors. 
According to a recent Department of Homeland Security Office of 
Inspector General report, supervisors at TSA's Transportation 
Threat Assessment and Credentialing Office have exhibited a 
pattern of poor management practices and inappropriate use of 
formal--informal administrative processes to assess and address 
misconduct.
    This report is yet one more example of why an examination 
of TSA's misconduct should be extended beyond the TSO 
workforce. I therefore look forward to hearing from both GAO 
and the OIG this morning on how TSA can improve its processes, 
and from TSA on how it intends to comply with GAO and OIG 
recommendations. I thank our witnesses for being here.
    Thank you, Mr. Chairman, for convening the meeting. I yield 
back the balance of my time.
    [The statement of Ranking Member Barber follows:]
                 Statement of Ranking Member Ron Barber
                             July 31, 2013
    In the aftermath of the September 11, 2001 terrorist attacks, the 
Transportation Security Administration (TSA) was created in an effort 
to protect air travel and keep the travelling public safe.
    In order to implement its mission, TSA employs thousands of 
Transportation Security Officers that on a daily basis screen almost 2 
million passengers at 450 airports throughout the United States.
    These dedicated, hardworking civil servants perform their duties in 
the face of frustration from weary travelers and critics of TSA's often 
frequently-changing policies.
    They serve as our first line of defense in aviation security and we 
rely on them, and the technology they utilize, to keep us safe from 
harm.
    Most organizations have experiences where employees do not live up 
to an organization's work standards. Unfortunately, this is also true 
sometimes for the Transportation Security Administration.
    According to media reports, from December 2010 through February 
2013, 108 TSOs have been arrested and 93 crimes--related to their 
employment--have been committed.
    According to the Government Accountability Office (GAO), from 2010 
through 2012, the annual number of TSA misconduct cases increased from 
2,691 to 3,408.
    The GAO also reported that 1,936, or 20 percent, of the 
aforementioned misconduct cases, were classified as security and 
screening violations. These pertain to incidents that include not 
conducting security or equipment checks and allowing people or baggage 
to bypass screening.
    TSA's first and foremost responsibility is to ensure the safety and 
security of travelers in a professional manner. We cannot allow one bag 
or one person go unscreened and this percentage is simply unacceptable.
    When compared to the TSA workforce in total, which numbers more 
than 55,000 employees, the overall misconduct numbers indicate around 6 
percent of TSA's employees were involved in wrongdoing.
    These statistics clearly show that more work can and must be done 
to properly train and effectively hire Transportation Security 
Officers.
    It should be noted that this data from GAO also indicates that the 
vast majority of TSOs are law-abiding citizens, seeking to carry out 
the mission of the Department of Homeland Security.
    According to GAO, TSA has made some progress in improving the 
professionalism and accountability of its workforce.
    For example, having a table of offenses with clearly defined ranges 
of penalties ensures that consistency and fairness exists in what was 
previously an ad hoc and arbitrary process.
    Furthermore, the creation of the TSA Office of Professional 
Responsibility has resulted in a reduced backlog of cases and quicker 
decisions for employees waiting to resolve their matters.
    TSA has also added additional training classes for its airport-
based personnel so that managers and supervisors are better able to 
identify and investigate misconduct.
    While these steps are important, they do not rule out the need for 
TSA to improve weaknesses that still exist, such as ensuring that 
misconduct cases are recorded in TSA's centralized database and making 
sure that misconduct cases are properly handled in accordance with TSA 
policies and procedures.
    Furthermore, when addressing misconduct, Congress and TSA have a 
responsibility to ensure proper oversight over the entire TSA 
workforce, including management and supervisors.
    According to a recent Department of Homeland Security Office of 
Inspector General (OIG) report, supervisors at TSA's Transportation 
Threat Assessment and Credentialing Office, have exhibited a pattern of 
poor management practices and inappropriate use of informal 
administrative processes to assess and address misconduct.
    This report is but one example of why an examination of TSA 
misconduct should extended beyond the TSO workforce.
    I therefore look forward to hearing from both GAO and the OIG on 
how TSA can improve its processes and from TSA on how it intends to 
comply with GAO and OIG recommendations.

    Mr. Duncan. I thank the Ranking Member.
    I ask unanimous consent that the gentleman from Florida, 
Mr. Mica, be permitted to participate in today's hearing. 
Without objection, so ordered.
    The Chairman now recognizes the Chairman of the 
Transportation Security Subcommittee, the gentleman from North 
Carolina, Mr. Hudson, for any statement he may have.
    Mr. Hudson. Thank you, Chairman Duncan.
    I would like to thank our panel of witnesses for being here 
today to discuss this very important issue. As we work this 
week in the House to hold Government accountable to the 
American people, I appreciate your willingness to address these 
issues before the subcommittee.
    I recognize that TSA screeners have a tough job. Screeners 
spend all day inspecting hundreds of people, and their personal 
possessions, trying to find--to stop a disaster, but never 
knowing exactly what the threat looks like or when it will 
strike. It is precisely the nature of the job that leaves 
absolutely no room for misconduct at screening checkpoints. At 
best, misconduct is a distraction to the screeners who are 
actually focused on preventing a bomb from getting on an 
airplane and killing thousands of innocent people. At worst, it 
is gross negligence and undermines the security of the United 
States and the confidence of the citizens in our Government.
    Earlier this year, my subcommittee held a series of 
hearings on TSA's efforts to advance risk-based security where 
we discussed the seriousness of the threats we face and what it 
will take for TSA to successfully implement PreCheck and other 
risk-based screening initiatives. Now more than ever, as TSA 
continues its much-needed transition towards risk-based 
security, the agency must fine-tune its hiring practices to 
ensure that it is employing the best qualified candidates to 
secure our Nation's airports, and that once hired each employee 
is held to the highest possible standard.
    It is critically important that as TSA moves towards a more 
concentrated and agile screening process, it also focuses in 
quality over quantity of the screening personnel. It is no 
secret that TSA's image with the American public has been 
tarnished and security has been compromised with certain cases 
of wrongdoing among a few TSA employees. These instances may 
not represent the majority of TSA employees, but they do have a 
direct impact on TSA's relationship with travelers and the 
overall screening environment. Reports that cases of employee 
misconduct have increased by nearly 30 percent over the last 3 
years do little to instill confidence in an agency that is 
already fighting an uphill battle.
    Today's hearing will provide the opportunity to hear from 
TSA and from the Government Accounting Office about what steps 
can be taken to reduce employee misconduct, improve consistency 
in how these cases are handled by TSA, and identify new 
opportunities to promote integrity and professionalism within 
the workforce. GAO's recent report makes several important 
recommendations to TSA on ways to improve how it handles 
employee misconduct, and I look forward to discussing those 
recommendations and what steps TSA has already taken to address 
those here today.
    Finally, I am concerned that TSA's attention to conduct 
stops short in addressing the issue of failing a covert test. 
TSA conducts covert testing at airport checkpoints as a way to 
identified security weaknesses. If a screener fails a covert 
test, he or she is taken off the line and instructed on what 
part of the test he or she failed. However, there is apparently 
no consequence or penalty. Instead, the person is retrained and 
allowed to go back to the checkpoint to screen for explosives.
    I think this issue is worth exploring further. If someone 
fails multiple tests and a simulated bomb is able to get 
through security and onto an airplane, what should be the 
penalty for that individual if our ultimate goal is maximizing 
the security that is being provided?
    I look forward to the witnesses' perspective on this, as 
well as the other areas for improvement identified by the GAO 
in its report. Thank you, Mr. Chairman. I yield back the 
balance of my time.
    [The statement of Chairman Hudson follows:]
                  Statement of Chairman Richard Hudson
                             July 31, 2013
    I recognize that TSA screeners have a tough job. It is hard to 
imagine spending all day inspecting hundreds of people and their 
personal possessions, trying to stop a disaster from happening, but 
never knowing exactly what the threat looks like or when it might 
strike.
    It is precisely the nature of the job that leaves absolutely no 
room for misconduct at the screening checkpoints. At best, misconduct 
is a distraction to the screeners who are actually focused on 
preventing a bomb from getting on an airplane and killing thousands of 
innocent people; at worst it is gross negligence that undermines the 
security of the United States and the confidence of citizens in 
Government.
    Earlier this year, my subcommittee held a series of hearings on 
TSA's efforts to advance risk-based security, where we discussed the 
seriousness of the threats we face, and what it will take for TSA to 
successfully implement Pre-Check and other risk-based screening 
initiatives.
    Now, more than ever, as TSA continues its much-needed transition 
toward risk-based security (RBS), the agency must fine-tune its hiring 
practices to ensure that it is employing the best-qualified candidates 
to secure our Nation's airports and that once hired, each employee is 
held to the highest possible standard. It is critically important that 
as TSA moves toward a more concentrated and agile screening process, it 
also focuses in quality over quantity of its screening personnel.
    It's no secret that TSA's image with the American public has been 
tarnished, and security has been compromised with certain cases of 
wrongdoing among TSA employees. These instances may not represent the 
majority of TSA employees, but they do have a direct impact on TSA's 
relationship with travelers and the overall screening environment. 
Reports that cases of employee misconduct have increased by nearly 30 
percent over the past 3 years do little to instill confidence in an 
agency that is already fighting an uphill battle.
    Today's hearing will provide the opportunity to hear from TSA and 
GAO about what steps can be taken to reduce employee misconduct, 
improve consistency in how these cases are handled by TSA, and identify 
new opportunities to promote integrity and professionalism within the 
workforce. GAO's recent report makes several important recommendations 
to TSA on ways to improve how it handles employee misconduct, and I 
look forward to discussing those recommendations here today.
    Finally, I am concerned that TSA's attention to conduct stops short 
of addressing the issue of failing a covert test.
    TSA conducts covert testing at airport checkpoints as a way to 
identify security weaknesses. If a screener fails a covert test, her or 
she is taken off the line and instructed on what part of the test he or 
she failed. However, there is apparently no consequence or penalty; 
instead the person is retrained and allowed to go back to the 
checkpoint and screen for explosives.
    I think this issue is worth exploring further: If someone fails 
multiple tests and a simulated bomb is able to get through security and 
onto an airplane, what should be the penalty for that individual, if 
our ultimate goal is to maximize the security that is being provided?
    I look forward to the witnesses' perspectives on this, as well as 
the other areas for improvement identified by the GAO in its report.

    Mr. Duncan. I thank the gentleman from North Carolina.
    The Chairman will now recognize the Ranking Minority Member 
of the Transportation Security Subcommittee, the gentleman from 
Louisiana, Mr. Richmond, for a statement he may have.
    Mr. Richmond. Thank you, Mr. Chairman. I trust that this 
hearing will be used to facilitate a constructive discussion 
regarding TSA's application of its disciplinary policies and 
not a platform for demeaning TSA's front-line workforce.
    Transportation security officers have an undeniably hard 
job and the overwhelming majority of them conduct themselves 
honorably and in accordance with TSA's protocols. With any 
large agency and organization, instances of misconduct and the 
failure to follow standard operating procedures will occur. 
This principle applies to CBP, ICE, the Secret Service, and the 
TSA alike.
    The distinction with TSA however, is the broad latitude the 
administrator has been provided to discipline the screener 
workforce. When TSA was established, Congress granted the 
administrator sweeping powers to set the terms of employment 
for screeners, notwithstanding any other provision of law. That 
means TSOs do not have the right to appeal adverse employment 
actions to the Merit Systems Protection Board, commonly 
referred to as the MSPB. This is the case despite the fact that 
managers and supervisors have the right to appeal to the MSPB 
themselves should they face disciplinary action. It also means 
TSOs do not enjoy the protections of the Rehabilitation Act, 
Equal Pay Act, and a litany of other employment laws.
    This dynamic makes it critical for TSA to handle 
allegations of misconduct in a fair and consistent manner. 
According to the GAO report released yesterday, TSA lacks the 
controls necessary to do just that. The result is a 
disciplinary system for TSOs that results in what happens--what 
appears to be arbitrary punishment.
    I am pleased that TSA has concurred with all of the GAO 
recommendations contained within the report. If implemented 
properly, these recommendations will provide both the public 
and the transportation security officers assurances that 
discipline is uniform and allegations of misconduct are 
properly adjudicated.
    I look forward to hearing from Deputy Administrator 
Halinski on the steps TSA intends to take to implement GAO's 
recommendations. I also look forward to hearing from Mr. 
Halinski on the challenges TSA faces in ensuring Nation-wide 
uniformity as it relates to discipline for screeners who engage 
in misconduct in light of the Screening Partnership Program.
    While TSA has the authority to set the terms of employment 
and propose disciplinary action for TSOs, its ability to do so 
for contract screeners is subject to the terms of the various 
contracts it has with private screening companies. This leads 
to both Congress and TSA lacking visibility into the 
disciplinary policies of companies providing passenger 
screening at over a dozen airports across the country.
    I also look forward to hearing from Mr. Lord of the GAO 
office during the hearing today. His expertise on matters of 
aviation security and TSA's policies continue to be of great 
value to the committee as it conducts its oversight of TSA.
    Finally, I look forward to hearing from Ms. Outten-Mills--
and I hope I didn't mess that up too bad--of the Department of 
Homeland Security's Office of Inspector General. Her testimony 
will provide insight into how the OIG and the TSA work 
collaboratively on allegations of misconduct.
    Mr. Chairman, before yielding back, I would like to 
reiterate my appreciation for you holding this joint hearing 
today. Approximately one-quarter of the transportation security 
officer workforce are veterans, and a vast majority of 
screeners wake up every day with one goal in mind: Protecting 
our transportation systems from terrorist attacks. Despite 
Congress neglecting to provide these men and women the standard 
employment protections afforded to their colleagues in the 
Federal Government, we should not settle for a system of 
arbitrary and ad hoc discipline by TSA. Both the screeners and 
the flying public deserve better.
    I would also like to point out that while there is a 
tendency to focus on allegations of misconduct, we should not 
ignore the instances of exemplary conduct by TSOs. Earlier this 
year a TSO in Georgia discovered a total of $1,000 left 
unattended in an ATM's cash dispenser. She turned it in. A TSO 
in New York who was on her way to the baggage room noticed an 
envelope on the ground with over $500 inside. Like her 
colleague in Georgia, she turned the money in. Hopefully, the 
detour did not result in her being disciplined for tardiness, 
the most common charge against TSOs, according to the GAO 
report.
    With that, Mr. Chairman, I yield back.
    [The statement of Ranking Member Richmond follows:]
             Statement of Ranking Member Cedric L. Richmond
                             July 31, 2013
    I trust that this hearing will be used to facilitate a constructive 
discussion regarding TSA's application of its disciplinary policies and 
NOT a platform for demeaning TSA's front-line workforce.
    Transportation Security Officers have an undeniably hard job and 
the overwhelming majority of them conduct themselves honorably and in 
accordance with TSA's protocols. With any large agency or organization, 
instances of misconduct and the failure to follow standard operating 
procedures will occur.
    This principle applies to CBP, ICE, the Secret Service, and TSA 
alike. The distinction with TSA, however, is the broad latitude the 
administrator has been provided to discipline the screener workforce.
    When TSA was established, Congress granted the administrator 
sweeping powers to set the terms of employment for screeners 
notwithstanding any other provision of law. That means TSOs do not have 
the right to appeal adverse employment actions to the Merit Systems 
Protection Board--commonly referred to as the MSPB. This is the case 
despite the fact that managers and supervisors have the right to appeal 
to the MSPB themselves--should they face disciplinary action. It also 
means TSOs do not enjoy the protections of the Rehabilitation Act, 
Equal Pay Act, and a litany of other employment laws.
    This dynamic makes it critical for TSA to handle allegations of 
misconduct in a fair and consistent manner. According to the GAO report 
released yesterday, TSA lacks the controls necessary to do just that. 
The result is a disciplinary system for TSOs that results in what 
appears to be arbitrary punishments. I am pleased that TSA has 
concurred with all of GAO's recommendations contained within the 
report. If implemented properly, these recommendations will provide 
both the public and Transportation Security Officers assurances that 
discipline is uniform and allegations of misconduct are properly 
adjudicated.
    I look forward to hearing from Deputy Administrator Halinski on the 
steps TSA intends to take to implement GAO's recommendations. I also 
look forward to hearing from Mr. Halinski on the challenges TSA faces 
in ensuring Nation-wide uniformity as it relates to discipline for 
screeners who engage in misconduct in light of the Screening 
Partnership Program.
    While TSA has the authority to set the terms of employment and 
propose disciplinary action for TSOs, its ability to do so for contract 
screeners is subject to the terms of the various contracts it has with 
private screening companies.
    This leads to both Congress and TSA lacking visibility into the 
disciplinary policies of companies providing passenger screening at 
over a dozen airports across the country.
    I also look forward to hearing from Mr. Lord of the Government 
Accountability Office during the hearing today. His expertise on 
matters of aviation security and TSA's policies continue to be of great 
value to the committee as it conducts oversight of TSA.
    Finally, I look forward to hearing from Ms. Outten-Mills of the 
Department of Homeland Security's Office of Inspector General. Her 
testimony will provide insight into how the OIG and TSA work 
collaboratively on allegations of misconduct.
    Mr. Chairman, before yielding back, I would like to reiterate my 
appreciation for you holding this joint hearing today. Approximately 
one-quarter of the Transportation Security Officer workforce are 
veterans and the vast majority of screeners wake up every day with one 
goal in mind--protecting our transportation systems from terrorist 
attack. Despite Congress neglecting to provide these men and women the 
standard employment protections afforded their colleagues in the 
Federal Government, we should not settle for a system of arbitrary and 
ad hoc discipline by TSA.
    Both the screeners and the flying public deserve better. I would 
also like to point out that while there is a tendency to focus on 
allegations of misconduct, we should not ignore the instances of 
exemplary conduct by TSOs. Earlier this year, a TSO in Georgia 
discovered a total of $1,000 left unattended in an ATM's cash 
dispenser. She turned it in. A TSO in New York who was on her way to 
the baggage room noticed an envelope on the ground with over $500 
inside. Like her colleague in Georgia, she turned the money in.
    Hopefully, the detour did not result in her being disciplined for 
tardiness, the most common charge against TSOs according to the GAO 
report.

    Mr. Duncan. I thank the gentleman from Louisiana.
    The Chairman will now recognize the Ranking Member of the 
full committee, Mr. Thompson, gentleman from Mississippi, for 
an opening statement.
    Mr. Thompson. Thank you very much, Mr. Chairman. At the 
outset, I would also remind you that the Democratic Caucus is 
meeting and the President of the United States is speaking with 
them at the exact time that we are holding this hearing. So I 
know why a number of my Members are absent, and I am certain 
one or two of the Members of this committee might slip out 
during the hearing also.
    Thank you for holding today's hearing. In the aftermath of 
the terrorist attack of September 11, 2001, multiple layers of 
security were put in place to protect our aviation system from 
terrorists and those who seek to do us harm. One of those many 
layers include the passenger and baggage screening conducted by 
transportation security officers, commonly referred to as TSOs. 
Every day, over 400 airports across the country, 47,000 TSOs 
utilize their training and available technologies to screen 
passengers and their baggage for weapons and explosives.
    The vast majority of TSOs are hard-working, dedicated, 
diligent Federal employees who take their role within the 
homeland security enterprise seriously and carry out this 
mission of the Transportation Security Administration in 
exemplary fashion. However, as many organizations have, there 
are some bad apples in the bunch.
    Yesterday, the Government Accountability Office released a 
report entitled ``Transportation Security: TSA Could Strengthen 
Monitoring of Allegations of Employee Misconduct.'' According 
to the report, although TSA has improved training and taken 
steps to improve investigations of misconduct, it still does 
not have a system in place to ensure that allegations of 
employee misconduct are adjudicated consistently and uniformly. 
The bulk of employee misconduct cases are handled at the 
airport level, meaning that what happens at one airport may 
differ from what happens at another.
    Fortunately, TSA concurred with the full recommendations 
made by GAO that seeks to improve TSA's procedures and bring 
consistency to its actions. Some steps, such as establishment 
of the Office of Professional Responsibility and the creation 
of a table of offense and penalties, have already been put into 
action. I look forward to hearing from TSA on how it plans to 
implement the recommendations made by GAO.
    It must be noted, however, that the misconduct that served 
as the basis for the GAO report covered a wide range of 
offenses. Fortunately, the largest percentage of cases examined 
by GAO, 32 percent, covered TSO attendance and leave issues as 
opposed to matters directly related to security. Those matters 
which did involve screening and security, accounting for 20 
percent of the examined cases, range from sleeping on duty to 
subjective enforcement of violations of standard operating 
procedures.
    While not making light of these matters, it is important to 
view them in the proper context and also bear in mind that 
these incidents were committed by less than 1 percent of the 
TSO workforce. This is important to highlight because there are 
some who advocate for doing away with the vital TSO workforce 
and replacing them with contract screeners. However, there is 
no indication that displacing 47,000 Federal employees would 
result in less misconduct or result in lower costs. In fact, 
contractor screeners are fully funded by taxpayer dollars that 
would simply be transferred from public to private-sector jobs.
    Moreover, cost analysis indicate that contract screeners 
cost taxpayers 3 to 9 percent more than the cost of Federal 
screeners at the same airport, and there is no indication that 
instances of misconduct would decrease. To the contrary, in a 
December 2012 report released by GAO it was noted that 
misconduct occurs among contract screeners as well. In 
particular, GAO found that, among other things, contract 
screeners have mishandled sensitive security information.
    Furthermore, we have a clear picture of a TSO's misconduct, 
insight into how to rectify current situations, and a direct 
avenue for exercising oversight of the process. The same is not 
true when it comes to contractors. In attempting to conduct 
oversight of the employment practices and discipline policies 
of contract vendors who provide screening services, I have made 
repeated requests to the company policies that govern screener 
activities and the number of instances of misconduct that have 
occurred among contract screeners. Instead of being provided 
with this information, the committee was informed that 
corporate rules prevented the release of this information 
because it was considered to be proprietary in nature.
    If every airport was populated by these contract screeners, 
that would be the answer Nation-wide, and hearings like the one 
we are conducting this morning would be an exercise in 
futility. Moreover, while we are conducting a hearing to 
publicize the missteps of a very small number of more than 
47,000 TSOs, misconduct continues to flourish at other TSA 
offices outside of the airport environment.
    For example, at my request, the Department of Homeland 
Security Office of Inspector General, whom we will also hear 
from this morning, found TSA's Transportation Threat Assessment 
and Credentialing Office, TTAC, exhibited a pattern of poor 
management practices and inappropriate use of informal 
administrative processes to assess and address misconduct. They 
also found that when TTAC personnel attempted to report 
managerial misconduct, such as workplace bullying, a hostile 
work environment, and discrimination based on gender, race, 
religion, age, and disability, they were prevented from filing 
their actions in some instances, and in other instances 
remained silent due to fear of retaliation or damage to their 
careers.
    As a result of the OIG report, I requested the Equal 
Employment Opportunity Commission to dig deeper into these 
allegations and conduct their own review to determine if these 
problems exist across the entire TSA. I look forward to hearing 
from OIG on whether the TSA has followed up on the 
recommendations. I thank the witnesses for appearing today and 
yield back the balance of my time.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             July 31, 2013
    In the aftermath of the terrorist attacks of September 11, 2001, 
multiple layers of security were put in place to protect our aviation 
system from terrorists and those who seek to do us harm.
    One of those many layers included passenger and baggage screening 
conducted by Transportation Security Officers (TSOs). Every day, at 
over 400 airports across the country, 47,000 TSOs utilize their 
training and available technologies to screen passengers and their 
baggage for weapons and explosives.
    The vast majority of TSOs are hard-working, dedicated, diligent 
Federal employees who take their role within the homeland security 
enterprise seriously and carry out the mission of the Transportation 
Security Administration (TSA) in exemplary fashion.
    However, as with any organization, there are some bad apples in the 
bunch. Yesterday, the Government Accountability Office (GAO) released a 
report entitled: ``Transportation Security: TSA Could Strengthen 
Monitoring of Allegations of Employee Misconduct.'' According to the 
report, although TSA has improved training and taken steps to improve 
the investigations of misconduct, it still does not have a system in 
place to ensure that allegations of employee misconduct are adjudicated 
consistently and uniformly.
    The bulk of employee misconduct cases are handled at the airport 
level meaning that what happens at one airport may differ from what 
happens at another. Fortunately, TSA concurred with the four 
recommendations made by GAO that seek to improve TSA's procedures and 
bring consistency to its actions.
    Some steps such as the establishment of the Office of Professional 
Responsibility and the creation of a Table of Offense and Penalties 
have already been put into action. I look forward to hearing from TSA 
on how it plans to implement the recommendations made by GAO.
    It must be noted, however, that the misconduct that served as the 
basis for the GAO report covered a wide range of offenses. Fortunately, 
the largest percentage of cases examined by GAO--32%--covered TSO 
attendance and leave issues, as opposed to matters directly related to 
security. Those matters which did involve screening and security, 
accounting for 20% of the examined cases, ranged from sleeping on duty 
to subjective enforcement of violations of standard operating 
procedures.
    While not making light of these matters, it is important to view 
them in the proper context and also bear in mind that these incidents 
were committed by less than 1% of the TSO workforce. This is important 
to highlight because there are some who advocate for doing away with 
the vital TSO workforce and replacing them with contract screeners.
    However, there is no indication that displacing 47,000 Federal 
employees would result in less misconduct or result in lower costs. In 
fact, contractor screeners are fully funded by taxpayer dollars that 
would simply be transferred from public to private-sector jobs. 
Moreover, cost analysis indicates that contractor screeners cost 
taxpayers 3 to 9 percent more than the cost of Federal screeners at the 
same airports.
    And there is no indication that instances of misconduct would 
decrease. To the contrary, in a December 2012 report released by GAO, 
it was noted that misconduct occurs among contract screeners as well. 
In particular, GAO found that, among other things, contract screeners 
have mishandled sensitive security information.
    Furthermore, we have a clear picture of TSO misconduct, insight 
into how to rectify current situations, and a direct avenue for 
exercising oversight of the process. The same is not true when it comes 
to contractors.
    In attempting to conduct oversight of the employment practices and 
discipline policies of contract vendors who provide screening services, 
I have made repeated requests for the company policies that govern 
screener activities and the number of instances of misconduct that has 
occurred among contract screeners.
    Instead of being provided with this information, the committee has 
been informed that corporate rules prevented the release of this 
information because it was considered to be proprietary in nature.
    If every airport was populated by these contract screeners, that 
would be the answer Nation-wide and hearings like the one we are 
conducted this morning would be an exercise in futility.
    Moreover, while we are conducting a hearing to publicize the 
missteps of a very small number of the more than 47,000 TSOs, 
misconduct continues to flourish at other TSA offices outside of the 
airport environment.
    For example, at my request, the Department of Homeland Security 
Office of Inspector General, whom we will also hear from this morning, 
found TSA's Transportation Threat Assessment and Credentialing Office 
(TTAC) exhibited ``a pattern of poor management practices and 
inappropriate use of informal administrative processes to assess and 
address misconduct.'' They also found that when TTAC personnel 
attempted to report managerial misconduct, such as workplace bullying, 
a hostile work environment, and discrimination based on gender, race, 
religion, age, and disability, they were prevented from filing their 
actions in some instances, and in other instances, remained silent due 
to fear of retaliation or damage to their careers.
    As a result of the OIG report, I have asked the Equal Employment 
Opportunity Commission to dig deeper into these allegations and conduct 
their own review to determine if these problems exist across the entire 
TSA.
    I look forward to hearing from the OIG on whether TSA has followed 
up on its recommendations.

    Mr. Duncan. Okay. Thank the Ranking Member for being here.
    I know you all will need to step out, but we will continue 
the hearing and welcome you back when you come.
    I just want to pause for a minute and give much thanks to 
both the Majority and Minority staff who helped prepare these 
hearings, prepare the witnesses, and prepare the Members. So I 
thank you guys for the tremendous work you do for the 
committee.
    Other Members of the subcommittees are reminded that 
opening statements may be submitted for the record.
    We are pleased to have a distinguished panel of witnesses 
before us today on this important topic. Let me remind the 
witnesses that their entire written statement will appear in 
the record. I will introduce each of you first and then 
recognize you individually for your testimony.
    Our first witness is Mr. John Halinski, currently serving 
as deputy administrator for the Transportation Security 
Administration. Mr. Halinski has joined TSA in July 2004, and 
served as assistant administrator in the Office of Global 
Strategies before assuming his role as deputy administrator. As 
assistant administrator from 2010 to 2012, Mr. Halinski was 
responsible for enhancing international transportation security 
through compliance, outreach, and engagement and capacity 
development. Previously, Mr. Halinski served 25 years in the 
Marine Corps in a variety of positions.
    As I have said before, thank you, sir, for your service to 
our Nation in the United States Marine Corps.
    Mr. Stephen Lord is director in the Government 
Accountability Office, GAO Forensic Audit and Investigative 
Services team. Until recently he was a director of homeland 
security and justice issues responsible for overseeing and 
directing the GAO's various engagements on issues related to 
aviation and surface transportation. His recent reviews of 
TSA's screening programs for passengers, checked baggage, and 
air cargo led to significant improvements in the agency's 
operations. Before being appointed to this position in 2007, 
Mr. Lord worked with the GAO on a number of important issues 
related to international security, trade, and finance.
    Ms. Deborah Outten-Mills currently serves as the acting 
assistant inspector general for inspections for the Department 
of Homeland Security, Office of Inspector General. Ms. Outten-
Mills has been with DHS OIG since 2006, also served as chief 
inspector. Prior to her service at DHS, Ms. Outten-Mills was 
the director of Department of Housing and Urban Development's 
Quality Assurance Division with the responsibility for offices 
located Nation-wide. Since her Federal career began in 1980, 
she has served in multiple leadership positions for various 
offices of inspectors general, including Department of 
Agriculture, the Naval Audit Service, and the Department of 
Labor.
    I want to thank you all for being here today. I will now 
recognize Mr. Halinski for his opening testimony.

     STATEMENT OF JOHN W. HALINSKI, DEPUTY ADMINISTRATOR, 
TRANSPORTATION SECURITY ADMINISTRATION, DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Halinski. Good morning. I am not sure it is working, 
sir. Good morning, sir. Good morning, Chairman Hudson, Chairman 
Duncan. Thank you for the opportunity to testify today. I 
appreciate the committee's interest in helping TSA develop, 
achieve, and maintain the highest professional standards for 
the diverse National workforce we employ.
    Every day, our agency's employees screen 1.8 million air 
travelers, vetting more than 14 million passengers and over 13 
million transportation workers against terrorist watch lists 
each week. As public servants dedicated to protecting the 
Nation's vital transportation network, the TSA workforce must 
adhere to the highest standards of conduct, integrity, 
professionalism.
    Mr. Duncan. Director Halinski, we are going to just ask you 
to pause for just a second. Let's see if we can get that mike 
going. We do have--it is running on some broadcasts, so we want 
to make sure we get that going.
    Mr. Halinski. I can use Mr. Lord's if it makes it easier.
    Mr. Duncan. Okay, you can continue. I apologize.
    Mr. Halinski. All right, sir.
    As public servants dedicated to protecting the Nation's 
vital transportation network, the TSA workforce must adhere to 
the highest standards of conduct. Integrity, professionalism, 
and hard work are more than the principles to guide employee 
behavior. They are the expectations we have for every TSA 
employee.
    The overwhelming majority of TSA employees are good people 
doing good work. Nonetheless, misconduct occurs, and when it 
does TSA takes prompt and appropriate action. Accountability is 
vital to our success. Our reputation is tarnished any time a 
TSA employee violates the public trust and fails to live up to 
TSA's high standard of conduct.
    As Administrator Pistole and I have shared in previous 
testimony, excellence in the workplace begins with a dedicated 
and professional workforce. With this in mind, Administrator 
Pistole established two new offices within TSA, the Office of 
Training and Workforce Engagement and the Office of 
Professional Responsibility.
    Shortly after Mr. Pistole was confirmed, he led a series of 
town hall meetings at which employees expressed concern 
regarding the consistent application of the agency's 
disciplinary process. To address their concerns, Administrator 
Pistole established the Office of Professional Responsibility 
to ensure that allegations of misconduct are thoroughly 
investigated and that discipline is appropriate, consistent, 
and fair across the agency.
    Since it was established the Office of Professional 
Responsibility has brought greater efficiency, timeliness, and 
objectivity to the discipline process. To complement these 
fundamental improvements, the office developed a table of 
offenses and penalties which is published and available to all 
TSA employees. Our Office of Professional Responsibility 
promotes greater efficiency by implementing and tracking time 
lines associated with adjudicating allegations of misconduct.
    With recent improvements, TSA welcomes GAO recommendations 
on how we can further refine these important efforts. A recent 
GAO audit reviewed a total of 9,622 cases over 3 years where 
individuals failed to meet TSA's standard of conduct. The 
majority of these cases involved administrative issues such as 
attendance and leave, and issues associated with not following 
management directives.
    Instances involving threat from 2010 to 2012 were less than 
0.07 percent of our total workforce. Issues involving sleeping 
accounted for less than 0.1 of 1 percent of our workforce or 
1.3 percent.
    While even those cases are too many, the agency 
investigates all allegations of misconduct and takes 
appropriate action, which can include referral to law 
enforcement and termination of employment. In most serious 
cases of workforce misconduct, involving drugs, threat, and 
intentional security breaches, TSA uses an expedited removal 
process. As GAO noted, TSA responds to instances of misconduct 
through a series of actions ranging from letters of reprimand 
to suspension from work, and in instances where the nature of 
the misconduct is more serious, removal from the TSA workforce.
    To maintain a high-caliber workforce, TSA recognizes that 
all aspects of its employment system must be reviewed, 
including the methods used to monitor allegations of employee 
misconduct. As such, TSA concurs with the four recommendations 
GAO provided and is undertaking these efforts to achieve those 
objectives. Some of these efforts are discussed in greater 
detail in the written statement I have submitted for the 
record.
    Towards the end of 2012, Administrator Pistole directed the 
TSA Office of Inspection to begin conducting covert integrity 
tests at airports around the country, noting we cannot and do 
not tolerate theft and will take swift action to hold 
accountable any employees engaged in criminal activity. The 
tests are on-going, and since December the Office of Inspection 
has conducted more than 640 integrity tests in 76 airports 
around the country. Only three TSA employees, each in a 
different airport, have been caught stealing during the Office 
of Inspection's integrity testing and were subsequently 
terminated within 24 hours.
    If you consider how many employees Nation-wide were exposed 
to the test items throughout the screening process, many 
employees had the opportunity to do the wrong thing but only 
three did. TSA's workforce has a fundamental role in providing 
security for the traveling public. The public has every right 
to expect the TSA workforce to adhere to the highest 
professional standards.
    On a personal note, let me be clear that Administrator 
Pistole and I maintain a zero tolerance policy with respect to 
employee misconduct. We appreciate the opportunity to work with 
each of you to strengthen the quality of our workforce. Thank 
you, and I look forward to answering your questions.
    [The prepared statement of Mr. Halinski follows:]
                 Prepared Statement of John W. Halinski
                             July 31, 2013
    Good morning Chairmen Hudson and Duncan, and Ranking Members 
Richmond and Barber. Thank you for the opportunity to testify today 
about the Transportation Security Administration's (TSA) role in 
promoting a strong counterterrorism workforce to safeguard the 
traveling public and secure our Nation's transportation systems. TSA 
appreciates the committee's interest in helping TSA achieve the highest 
professional standards for our workforce.
    Both in the field and at headquarters, the TSA workforce is 
vigilant in ensuring the security of people and commerce that flow 
through our Nation's vast transportation networks. TSA employs risk-
based, intelligence-driven operations to prevent terrorist attacks and 
to reduce the vulnerability of the Nation's transportation system to 
terrorism. Our goal at all times is to maximize transportation security 
to stay ahead of evolving terrorist threats while protecting privacy 
and facilitating the flow of legitimate travel and commerce. TSA's 
security measures create a multi-layered system of transportation 
security that mitigates risk. We continue to evolve our security 
approach by examining the procedures and technologies we use, how 
specific security procedures are carried out, and how screening is 
conducted.
    The TSA workforce occupies the front line in executing the agency's 
transportation security responsibilities in support of the Nation's 
counterterrorism efforts. These responsibilities include security 
screening of passengers and baggage at 450 airports in the United 
States that facilitate air travel for 1.8 million people per day; 
vetting more than 14 million passengers and over 13 million 
transportation workers against terrorist watch lists each week; and 
conducting security regulation compliance inspections and enforcement 
activities at airports, for domestic and foreign air carriers, and for 
air cargo screening operations throughout the United States and at last 
point of departure locations internationally.
    TSA also ensures the security of surface transportation operations. 
To date, we have conducted more than 29,000 Visible Intermodal 
Prevention and Response or VIPR operations in surface transportation. 
We have 37 multi-modal VIPR teams working in transportation sectors 
across the country to prevent or disrupt potential terrorist planning 
activities. Since 2006, TSA has completed more than 290 Baseline 
Assessments for Security Enhancement for transit, which provides a 
comprehensive assessment of security programs in critical transit 
systems. We are seeing the benefits of how these important steps--
combined with our well-trained and highly-motivated workforce and our 
multiple layers of security including cutting-edge technology--keep 
America safe every day.
    TSA is committed, not only to improving the effectiveness of 
security, but to doing so in the most cost-effective manner possible. 
Through advancements in workforce efficiency, TSA has been able to 
accommodate the increased workload that has accompanied the current 
practice of many airlines to charge fees for all checked baggage, the 
restrictions on liquids aerosols and gels we had to implement to 
counter a known terrorist threat, and the screening required for the 
significant increase in the number of laptops carried by passengers. By 
employing smarter security practices in developing and deploying our 
people, processes, and technologies we are delivering more effective 
security in a more efficient manner, and we will continue to do so.
             maintaining a workforce of the highest caliber
    A dedicated TSA workforce assures the traveling public that they 
are protected by a multi-layered system of transportation security that 
mitigates risk. An effective workforce must be properly trained while 
good management and appropriate pay are key ingredients in preserving a 
motivated and skilled workforce. To this end, TSA has implemented 
employee development initiatives like the Leaders at Every Level (LEL), 
through which TSA identifies high-performing employees and fosters 
commitments to excellence and teamwork, and the Associates Program, 
which builds morale and provides the workforce an opportunity to 
enhance technical and non-technical skills through formal training and 
education programs. The implementation of a new four-tier performance 
management program for non-Transportation Security Officers (TSOs) 
enables the workforce to actively engage in developing their annual 
performance goals in collaboration with their supervisors, while 
promoting two-way communication between employees and their supervisors 
throughout the performance year. Providing a mechanism to proactively 
identify opportunities to improve their performance has increased 
employee morale.
    As public servants, TSA employees must adhere to the highest 
ethical and personal conduct standards. All aspects of our workforce 
regimen--hiring, promotion, retention, training, proactive compliance 
inspections, investigations, and adjudications--are driven by adherence 
to the highest ethical standards. In 2011, Administrator Pistole 
established two new offices within TSA--the Office of Training and 
Workforce Engagement (OTWE) and the Office of Professional 
Responsibility (OPR). In order to strengthen training and ensure that 
it continues to receive the appropriate level of attention, OTWE 
oversees the development and delivery of training, learning, formal 
development, and workforce engagement programs for employees. New hire 
training modules feature an introduction to TSA's employee 
responsibilities and conduct while leadership training is designed to 
prepare candidates to address conduct issues through required rotations 
in the Office of Inspection (OOI) and OPR.
    Through a series of town hall meetings with field employees, TSA 
recognized the need for consistent application of the agency's 
disciplinary process. As a result, Administrator Pistole established 
OPR to ensure that allegations of misconduct are thoroughly 
investigated and that discipline is appropriate, consistent, and fair 
across the agency. In addition, OPR developed a Table of Offenses and 
Penalties in September 2011, which is available to all TSA employees 
and identifies TSA policies and possible consequences of violation 
including penalties for each type of offense. OPR also promotes greater 
efficiency for disciplinary actions by implementing and tracking time 
lines for adjudicating allegations of misconduct. OPR officials are 
required to issue closure letters, corrective actions, and proposal 
notices within 30 days from receipt of the report of investigation, and 
OPR must issue a decision within 21 days from receipt of the employee's 
reply.
      ``insider threat'' program addresses potential vulnerability
    While the vast majority of TSA employees are hard-working, 
professional, and abide by the highest ethical standards, a single bad 
act by one employee can create a security vulnerability. TSA has also 
developed and implemented an Insider Threat Program aimed at deterring, 
detecting, and mitigating insider threats to TSA's personnel, 
operations, information, and critical infrastructure. The Insider 
Threat Program conducts a multi-layered approach to gather and analyze 
information identifying possible vulnerabilities involving personnel or 
information systems; coordinates with DHS and other counterintelligence 
programs to assess and mitigate allegations of insider threat activity; 
and conducts employee awareness training to educate TSA personnel and 
airport stakeholders regarding insider threats. TSA employees are 
encouraged to report any suspicious encounters, activities, or 
behaviors that might constitute an insider threat to their immediate 
supervisor or through an available Insider Threat Program website or 
phone number.
                 gao review of tsa employee misconduct
    A recent audit by the Government Accountability Office (GAO) 
reviewed data from TSA that found a total of 9,622 cases over a 3-year 
period (fiscal years 2010 through 2012) where individuals failed to 
meet TSA's standards of conduct. It is important to note the report 
covers a broad range of misconduct ranging from tardiness to serious 
security risks. Of the total cases reviewed by GAO, 3,117 involved 
attendance and leave, which are issues that challenge all employers in 
both the public and private sectors. The most serious categories 
including neglect of duty, integrity, and ethics, and falsification 
represented 11% or 1,122 cases. TSA investigates all allegations of 
misconduct and takes appropriate action, which can include referral to 
law enforcement and termination of employment. In the most serious 
cases of screening workforce misconduct involving drugs, theft, and 
intentional security breaches, TSA uses an expedited removal process 
while ensuring due process.
    The majority of misconduct cases are handled by the Office of 
Security Operations (OSO) management officials at the airports. These 
cases include attendance and leave, security and screening violations, 
and alcohol-related violations involving TSOs, Lead and Supervisory 
TSOs, Transportation Security Managers, Transportation Security 
Inspectors, Behavior Detection Officers, and other airport staff. TSA 
responds to instances of misconduct through a series of actions, 
ranging from Letters of Reprimand to suspension from work, and in 
instances where the nature of the misconduct is egregious, removal from 
the TSA workforce. Generally, to effect these actions, TSA management 
officials issue a Notice of Proposed Action and provide the employee 
the opportunity to review the evidence supporting the charge and the 
opportunity to respond orally and/or in writing. Management officials 
then consider the input from the affected employee prior to issuing a 
written decision.
                               conclusion
    As we review and evaluate the effectiveness of TSA's aviation 
security enhancements, we must always be cognizant of the fact that 
these enhancements are only as good as the people who operate, staff, 
and manage them. As we strive to continue strengthening transportation 
security and improving, whenever possible the overall travel experience 
for all Americans, we must always remember that our success is defined 
in the final analysis by our people. Whether it is for business or for 
pleasure, the freedom to travel from place to place is fundamental to 
our way of life, and to do so securely is a goal to which everyone at 
TSA is fully committed.
    Thank you for the opportunity to appear before you today. I will be 
happy to address any questions you may have.

    Mr. Duncan. Thank you.
    The Chairman will now recognize Mr. Lord for an opening 
statement.

  STATEMENT OF STEPHEN M. LORD, DIRECTOR, FORENSIC AUDITS AND 
    INVESTIGATIVE SERVICES, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Lord. Chairmen Duncan and Hudson, Ranking Member 
Thompson, thanks for inviting me here today to discuss the 
results of our TSA misconduct report released yesterday. I 
think this is a timely hearing given recent press accounts 
about these types of incidents, and also TSA's recent efforts 
to address them.
    I think it is important to note as context that TSA manages 
a transportation security officer workforce of 56,000 spread 
across 450 airports. In some ways it is a difficult workforce 
to address, and it also underscores the need to have clearly-
defined and consistently-applied procedures to not only 
investigate, but adjudicate instances of misconduct.
    Today I would like to discuss two issues highlighted in our 
recent report. The first is the magnitude of the problem; and 
second, it is a little more insight on how TSA investigates and 
adjudicates these allegations.
    Regarding the numbers, TSA investigated, adjudicated 9,600 
cases over the last 3 years. That is an average of about 3,200 
per year. As Mr. Halinski noted, about half of these cases 
focused on two areas, attendance and leave, as well as security 
and screening. It is interesting when you look at how TSA 
responded to these cases, of the 9,600 cases, about half 
resulted in letters of reprimand; 31 percent resulted in 
suspensions; and 17 percent resulted in the employee's removal 
from TSA.
    It is important to note that TSA has taken some positive 
steps to address these issues recently. For example, they 
established the Office of Professional Responsibility and also 
rolled out a new training program for airport staff. However, 
as we highlighted in the report issued yesterday, they still 
need to enhance the current process by taking four key actions.
    First, they need to verify that airport staff complied with 
the procedures for adjudicating these cases. Why is that the 
case? We found that the TSA review board, once they have 
reviewed some of these misconduct cases, they either overturned 
or rolled back the penalty in 15 percent of the cases. We 
looked at over 800 of these cases, and again, this suggests the 
need for more consistency in the process.
    A second key point is TSA needs to do a better job of 
recording the results of its adjudication in its so-called 
Integrated Database. We found when we visited seven airports, 
five of the airports we interviewed the staff, they weren't 
using the so-called Integrated Database to record all the 
incidents. Recording the outcome of these cases is important, 
especially when TSA employees move across airports. You really 
need to know what their track record is if you are going to 
have any disciplinary issues with them.
    Third, TSA needs to do a better job of tracking the time 
taken to not only investigate the cases, but adjudicate them. I 
call that the start-to-finish time. You really need a little 
more awareness of how long it has taken to close these cases. 
It is interesting to note, while TSA has standards it expects 
its staff to comply with, it really doesn't track performance 
against these standards in terms of timeliness. We think 
tracking these cycle times would really give management some 
good insights on what airports--if there are any special issues 
or what types of cases are problematic.
    Finally, we recommended that TSA establish so-called 
reconciliation procedures. That means once you complete an 
investigation you need to adjudicate it. That is, apply the 
appropriate penalty. We noticed they weren't, they didn't close 
the loop on a few cases. We looked at 50. We found two that 
hadn't been fully adjudicated. That is a small number, but, you 
know, given the numbers involved, we thought that could be 
symptomatic of a larger problem.
    In closing, as we highlighted in our report released 
yesterday, TSA still needs to take some key actions to enhance 
the current process, and this will help instill greater public 
confidence in the TSA staff interacting with the public at over 
450 airports. As Mr. Halinski and some Members already noted, 
you do not want the misdeeds of a few bad apples to sully the 
reputation of a lot of hard-working, dedicated employees.
    The good news, as Mr. Halinski said, is TSA has endorsed 
our recommendations, and we will work with them closely over 
the next few months to see how they implement them in practice.
    Chairman Duncan, this concludes my prepared statement. I 
look forward to responding to any questions. Thank you.
    [The prepared statement of Mr. Lord follows:]
                 Prepared Statement of Stephen M. Lord
                             July 31, 2013
                              gao-13-756t
    Chairmen Duncan and Hudson, Ranking Members Barber and Richmond, 
and Members of the subcommittees: I am pleased to be here to discuss 
the findings of our report issued yesterday assessing the 
Transportation Security Administration's (TSA) efforts to address 
employee misconduct.\1\ TSA employs approximately 56,000 transportation 
security officers (TSO) and other TSA personnel to ensure the security 
of the traveling public at more than 450 TSA-regulated airports Nation-
wide.\2\ News stories in recent years have highlighted several high-
profile allegations of misconduct by TSA employees, including TSOs 
being involved in theft and drug-smuggling activities, as well as 
circumventing mandatory screening procedures for passengers and 
baggage. For example, in 2011, a TSO at the Orlando International 
Airport pleaded guilty to Federal charges of embezzlement and theft for 
stealing more than 80 laptop computers and other electronic devices, 
valued at $80,000, from passenger luggage. TSOs engaging in misconduct 
raise security concerns because these employees are charged with 
helping to ensure the security of our Nation's aviation system.
---------------------------------------------------------------------------
    \1\ GAO, Transportation Security: TSA Could Strengthen Monitoring 
of Allegations of Employee Misconduct, GAO-13-624 (Washington, DC: July 
30, 2013).
    \2\ The total number of TSA employees at TSA-regulated airports 
represents personnel within the Office of Security Operations, such as 
TSOs, supervisory TSOs, lead TSOs, transportation security managers, 
transportation security inspectors, and behavior detection officers. 
This statement is focused on TSA personnel at TSA-regulated airports. 
We excluded TSA employees at headquarters, the Federal Air Marshal 
Service, regional offices, and other non-airport locations, and do not 
include private-sector screeners employed by contractors providing 
screening services at airports participating in TSA's Screening 
Partnership Program.
---------------------------------------------------------------------------
    The process of addressing TSA employee misconduct involves various 
components within the Department of Homeland Security (DHS). For 
example, depending on the facts and circumstances of a case, the DHS 
Office of Inspector General (OIG), TSA Office of Inspection (OOI), or 
TSA Office of Security Operations (OSO) may conduct an investigation 
into allegations of TSA employee misconduct. OSO generally adjudicates 
cases at airports--that is, determines whether the evidence is 
sufficient to propose and sustain a charge of misconduct and determines 
the appropriate penalty. The Office of Professional Responsibility 
(OPR), an independent office that TSA established in 2010 to provide 
greater consistency in misconduct penalty determinations, adjudicates a 
more specialized set of cases, such as misconduct involving senior-
level TSA employees at airports and other locations.
    My testimony this morning will address the key findings from the 
report on TSA's efforts to address employee misconduct that we issued 
yesterday.\3\ Specifically, like the report, my statement will address: 
(1) Data on TSA employee misconduct cases and (2) TSA efforts to manage 
and oversee the investigations and adjudications process.
---------------------------------------------------------------------------
    \3\ GAO-13-624.
---------------------------------------------------------------------------
    For the report, we reviewed standard operating procedures, policy 
statements, and guidance for staff charged with investigating and 
adjudicating allegations of employee misconduct, and analyzed TSA 
misconduct data from fiscal years 2010 through 2012. While we 
identified some limitations with the data, we found the data 
sufficiently reliable for providing general information on the nature 
and characteristics of employee misconduct. We compared TSA processes 
for investigations and adjudications with TSA policies and procedures 
and Standards for Internal Control in the Federal Government.\4\ In 
addition, we selected a sample of 7 airports, based on variances in 
number and type of past cases of employee misconduct and geographic 
dispersion, from the approximately 450 TSA-regulated airports Nation-
wide, and conducted site visits and interviews with TSA officials 
responsible for addressing employee misconduct. While not 
generalizable, the airport interviews provided us with the perspectives 
of TSA officials responsible for conducting TSA employee misconduct 
investigations or adjudications. We also analyzed a random, 
nongeneralizable sample of 50 allegations referred from the DHS OIG to 
TSA to identify follow up actions. We conducted this work in accordance 
with generally accepted Government auditing standards. More detailed 
information on the scope and methodology can be found in our published 
report.
---------------------------------------------------------------------------
    \4\ GAO, Standards for Internal Control in the Federal Government, 
GAO/AIMD-00-21.3.1 (Washington, DC: Nov. 1, 1999).
---------------------------------------------------------------------------
 tsa investigated and adjudicated approximately 9,600 misconduct cases 
                  from fiscal years 2010 through 2012
    In July 2013, we reported that TSA investigated and adjudicated 
approximately 9,600 cases of employee misconduct from fiscal years 2010 
through 2012, according to TSA employee misconduct data that we 
analyzed.\5\ Two offense categories accounted for about half of all 
cases--(1) Attendance and leave, which accounted for 32 percent; and 
(2) screening and security, which accounted for 20 percent. Charges for 
screening and security-related incidents pertain to violating standard 
operating procedures, including not conducting security or equipment 
checks, and allowing patrons or baggage to bypass screening. TSA 
developed a Table of Offenses and Penalties that delineates common 
employee charges, along with a suggested range of penalties. Of the 
cases that we analyzed, 47 percent resulted in letters of reprimand, 
which describe unacceptable conduct that is the basis for a 
disciplinary action; 31 percent resulted in suspensions of a definite 
duration; and 17 percent resulted in the employee's removal from TSA. 
The remaining cases covered a variety of outcomes, including 
suspensions of an indefinite duration.
---------------------------------------------------------------------------
    \5\ Employee misconduct cases refer to allegations for which TSA 
has completed an investigation and adjudication.
---------------------------------------------------------------------------
tsa has taken steps to help manage the investigations and adjudications 
  process, but could develop additional procedures to better monitor 
                       employee misconduct cases
    In our July 2013 report, we found that TSA has taken steps to help 
manage the investigations and adjudications process, such as creating 
OPR in 2010 to provide greater consistency in misconduct penalty 
determinations and providing training for TSA staff at airports 
responsible for investigating and adjudicating allegations of employee 
misconduct. While TSA has taken these steps, we reported weaknesses in 
four areas related to monitoring of employee misconduct cases: (1) 
Verifying that TSA staff at airports comply with policies and 
procedures for adjudicating misconduct, (2) recording case information 
on all adjudication decisions, (3) tracking the time taken to complete 
all phases of the investigations and adjudications process, and (4) 
identifying allegations not adjudicated by the agency.
    Verifying that TSA staff comply with policies and procedures for 
adjudicating misconduct.--TSA does not have a process for reviewing 
misconduct cases to verify that TSA staff at airports are complying 
with policies and procedures for adjudicating employee misconduct. 
According to TSA policies and procedures, adjudicating officials need 
to collect sufficient evidence to support penalty charges and consider 
factors, such as an employee's disciplinary track record, in making a 
penalty determination. However, some misconduct cases have been 
overturned or the penalties reduced through the appeals process because 
staff at airports had not supported the charges with sufficient 
evidence, among other things. For example, from January 2011 to June 
13, 2013, the OPR Appellate Board--which reviews appeals made by TSOs 
on certain actions, such as suspensions of 15 days or more--either 
overturned or reduced the penalty in 125 out of 836 cases (15 percent). 
A senior TSA official agreed that TSA would benefit from a review 
process to help verify that staff at airports are making adjudication 
decisions in conformance with policies and procedures. Without a review 
process, it is difficult for TSA to provide reasonable assurance that 
cases have been adjudicated properly and that risk to the agency is 
mitigated accordingly. Therefore, in our July 2013 report, we 
recommended that TSA establish a process to conduct reviews of 
misconduct cases to verify that TSA staff at airports are complying 
with policies and procedures for adjudicating employee misconduct. DHS 
concurred and stated that TSA is developing a process to provide 
increased auditing of disciplinary records. TSA expects to develop this 
process by March 31, 2014.
    Recording case information on all adjudication decisions.--TSA does 
not record the results of all misconduct cases that have been 
adjudicated by TSA airport staff in its Integrated Database, which is 
TSA's centralized system for tracking and managing employee misconduct 
cases. For example, the agency does not record all cases that resulted 
in a corrective action, which are actions that are administrative in 
nature, such as a letter of counseling. Specifically, we found that 5 
out of the 7 airports included in our sample do not consistently track 
corrective actions in the Integrated Database. A senior TSA official 
agreed that there is a strong need for TSA to clarify that TSA staff at 
airports should record corrective actions in the database. Recording 
all outcomes in the Integrated Database would help provide a 
centralized, institutional record on past misconduct. It would also 
enable managers to follow a progressive discipline approach, which is 
the process of taking progressively more severe action, when 
appropriate, until the unacceptable conduct is corrected or the 
employee is removed from the agency. Thus, in our July 2013 report, we 
recommended that TSA develop and issue guidance to the field clarifying 
the need for TSA officials at airports to record all misconduct case 
outcomes in the Integrated Database. DHS concurred and stated that TSA 
will develop and disseminate additional guidance to the field to ensure 
that all outcomes are recorded in the database. TSA expects to develop 
and disseminate additional guidance to the field by August 30, 2013.
    Tracking the time taken to complete all phases of the 
investigations and adjudications process.--While TSA has established 
standards for the amount of time to complete the investigations and 
adjudications process, the agency has not required TSA staff at 
airports to track their performance against the standards. 
Specifically, our review of TSA data from the Integrated Database on 
misconduct cases handled by TSA airport staff identified that TSA does 
not capture information on the amount of time taken to complete the 
investigations and adjudications process, including the number of days 
to complete an investigation and issue a notice of proposed action. 
Tracking cycle times would provide TSA with operational information, 
such as differences in processing time by, among other things, type of 
case, and could allow the agency to identify any delays, such as 
challenges associated with evidence collection. According to TSA senior 
officials, tracking cycle times for investigations and adjudications 
completed by airport staff would also provide valuable information on 
the differences in case processing time frames across airports. In our 
July 2013 report, we recommended that TSA establish an agency-wide 
policy to track cycle times in the investigations and adjudications 
process. DHS concurred and stated that TSA will develop a process and 
mechanism to track cycle times for misconduct cases handled by TSA 
airport staff. TSA expects to develop a process and mechanism by March 
31, 2014.
    Identifying allegations not adjudicated by TSA.--TSA does not have 
reconciliation procedures--that is, procedures to follow up on 
completed misconduct investigations to ensure that the agency has 
identified cases requiring adjudication. According to a random sample 
of 50 allegations referred from DHS OIG to TSA in fiscal year 2012, we 
found that 2 were not adjudicated by TSA. As a result of our review, 
TSA made adjudication decisions on these allegations, one of which 
resulted in a 14-day suspension for the employee because of disruptive 
behavior in the workplace. The results from our sample cannot be 
generalized to the entire population of over 1,300 allegations referred 
from DHS OIG to TSA in fiscal year 2012; however, it raises questions 
as to whether there could be additional instances of allegations 
referred to TSA in this population that the agency has not adjudicated. 
A senior TSA official agreed that a reconciliation process would offer 
benefits to TSA as there may be other allegations the agency is unaware 
of that have been investigated but not adjudicated. Therefore, in our 
July 2013 report, we recommended that TSA develop reconciliation 
procedures to identify allegations of employee misconduct not 
previously addressed through adjudication. DHS concurred and stated 
that TSA will implement a reconciliation process to ensure that 
completed misconduct investigations are adjudicated. TSA expects to 
implement a reconciliation process by March 31, 2014.
    Chairmen Duncan and Hudson, Ranking Members Barber and Richmond, 
and Members of the subcommittees, this concludes my prepared statement. 
I look forward to responding to any questions that you may have.

    Mr. Duncan. Thank you, Mr. Lord.
    The Chairman will now recognize Ms. Outten-Mills for 5 
minutes. Am I pronouncing that correctly, Outten-Mills?
    Ms. Outten-Mills. Outten-Mills.
    Mr. Duncan. Outten? Okay. I apologize for mispronouncing it 
earlier. Ms. Outten-Mills is recognized for 5 minutes.

    STATEMENT OF DEBORAH L. OUTTEN-MILLS, ACTING ASSISTANT 
INSPECTOR GENERAL FOR INSPECTIONS, OFFICE OF INSPECTOR GENERAL, 
                DEPARTMENT OF HOMELAND SECURITY

    Ms. Outten-Mills. Thank you. Good morning, Chairmen Hudson 
and Duncan and Ranking Member Thompson. Thank you for the 
opportunity to testify on integrity and misconduct challenges 
in TSA.
    To protect the American people in their homeland, it is 
paramount to maintain employee integrity and accountability. 
Within DHS, OIG maintains primary law enforcement authority to 
investigate allegations of employee misconduct and fraud 
involving DHS programs, operations, and activities. Other 
Departmental internal affairs units investigate allegations of 
employee misconduct that OIG either refers back to them or that 
do not require referral to OIG. These allegations generally 
relate to administrative or noncriminal matters.
    For fiscal year 2004 through 2012, DHS received 
approximately 130,000 allegations through the OIG hotline and 
from various internal affairs offices within the Department, 
and we initiated investigation on about 10,000 allegations. OIG 
investigations hotline staff processes all complaints that come 
to the OIG. When OIG declines a case, it is referred back to 
the applicable component agency for further inquiry or 
investigation. Unless specifically requested, OIG does not 
track what happens to the complaint after it is referred to the 
component.
    Within TSA, the Office of Inspection is responsible for 
conducting internal investigations of employee misconduct. This 
office operates under a blanket waiver that waives referrals to 
OIG for certain alleged offenses. The waiver was based on our 
observation that we had accepted for investigation about 3 
percent of these types of referred allegations and had 
requested reports of results for only 10 percent of the cases 
referred back to TSA for investigation.
    In fiscal year 2012, OIG received approximately 16,400 
complaints of misconduct. Of these cases, 1,358 were related to 
TSA. OIG initiated investigations for approximately 90 cases 
and referred about 1,268 complaints to TSA's Office of 
Inspection.
    While none of our work focused primarily on TSA's 
challenges in dealing with misconduct issues, we identified 
reports that may provide some insight into TSA's efforts to 
address allegations of employee misconduct and strengthen their 
ability to monitor employee misconduct.
    In October 2012, we issued a report, ``Personal Security 
and Internal Control at TSA's Legacy Transportation Threat 
Assessment and Credentialing Office,'' TTAC, to determine 
whether personnel with critical roles in transportation 
security had sufficient oversight. TTAC was established as the 
lead for conducting security threat assessments and 
credentialing initiatives for domestic passengers, 
transportation industry workers, and individuals seeking access 
to critical infrastructure.
    We determined that within the legacy TTAC office there has 
been a pattern of poor management practices and inappropriate 
use of informal administrative processes to assess and address 
misconduct. Senior legacy TTAC leaders sought to address 
allegations of misconduct through training and informal 
internal administrative processes, but its efforts were not 
successful. Employee complaints channelled through TSA's formal 
grievance processes were managed and documented appropriately, 
but not all employees had sufficient information to access 
formal redress options.
    We recommended that TSA, for a minimum of 2 years, that the 
legacy TTAC office refer all personnel-related complaints, 
grievances, disciplinary actions, investigations, and 
inspections to appropriate TSA or DHS offices with primary 
oversight responsibility.
    We also recommended that they provide employees with a Know 
Your Rights and Responsibilities website, and that they 
establish an independent review panel through which legacy TTAC 
employees may request a review of desk audits. We also 
conducted a review of allegations of misconduct and illegal 
discrimination retaliation in the Federal Air Marshal Service. 
In 2010, CNN reported allegations of misconduct and illegal 
discrimination and retaliation in the FAMS Orlando field 
office. While our review did not find widespread discrimination 
and retaliation within FAMS, we identified inconsistencies in 
how field offices handle and report misconduct incidents to 
headquarters, the severity of discipline decisions for employee 
misconduct, and timeliness issues for executing various 
portions of the discipline process.
    We recommended that TSA provide guidance regarding the 
types of incidents that should be reported to the Office of 
Inspections, that they provide clarification about discipline 
actions, and develop a comprehensive tracking system.
    This concludes my prepared remarks, and I welcome any 
questions that you or the Members may have.
    [The prepared statement of Ms. Outten-Mills follows:]
             Prepared Statement of Deborah L. Outten-Mills
                             July 31, 2013
    Good morning Chairman Duncan, Ranking Member Barber, Chairman 
Hudson, and Ranking Member Richmond. Thank you for the opportunity to 
testify on integrity and misconduct challenges in the Transportation 
Security Administration.
    To protect the American people and their homeland, it is paramount 
to maintain employee integrity and accountability. Within the 
Department of Homeland Security, the Inspector General Act of 1978 and 
the Homeland Security Act of 2002 give the Department's Office of 
Inspector General (OIG) primary law enforcement authority to 
investigate allegations of employee misconduct and contractor or 
grantee fraud involving DHS programs, operations, and activities. Other 
Departmental internal affairs units investigate allegations of employee 
misconduct that OIG either refers to them, or that do not require 
referral to OIG. These allegations generally relate to administrative 
or non-criminal matters.
    For fiscal years 2004 through 2012, DHS OIG received about 130,000 
allegations through the OIG Hotline, and from various internal affairs 
offices within the Department, and initiated investigations on about 
10,000 allegations.
    OIG Office of Investigations (INV) hotline staff process all 
complaints that come to the OIG. Allegations are logged into the 
Enterprise Data System (EDS), which links OIG headquarters to its field 
offices. When OIG headquarters sends an allegation to a field office, 
the Special Agent in Charge (SAC) of the field office has 5 days to 
retain or decline the case. Cases declined by field offices are 
returned to the hotline staff for transmittal to applicable component 
agency for further inquiry or investigation. Unless specifically 
requested, INV does not track what happens to the complaint after 
referring it to the component.
    When OIG INV refers a matter to a component, the component uses its 
personnel to investigate. Within TSA, the Office of Inspection (OOI) is 
responsible for ensuring: (1) The effectiveness and efficiency of TSA's 
operations and administrative activities through inspections and 
internal reviews, and (2) the integrity of TSA's workforce. OOI is 
delegated authority to conduct internal investigations of employee 
misconduct.
    Management Directive 0810.1 requires that OOI, immediately upon 
receipt, refer to OIG all allegations of criminal misconduct by a DHS 
employee; allegations of misconduct by a GS-15 level (K band) or 
higher, or OOI employee; allegations of serious noncriminal misconduct 
against a law enforcement officer; discharges of firearms resulting in 
injury or death; and allegations of fraud involving contractors, 
grantees, or DHS funds. OOI must notify OIG of all other allegations 
within 5 days. OIG assigns investigative responsibility for allegations 
by: (1) Initiating an investigation, (2) referring allegations back to 
OOI for handling, or (3) administratively closing matters without 
further action.
    OOI operates under a blanket waiver that waives referrals to OIG 
for certain alleged offenses. These offenses include: (1) Thefts from 
TSA checkpoints of less than $2,000, (2) time, attendance, and travel 
fraud; (3) domestic violence by employees who were not law enforcement 
officers; (4) accidental firearms discharge not involving injury; (5) 
workers' compensation fraud; (6) local criminal charges such as failure 
to appear, (7) traffic offenses and driving under the influence; and 
(8) other local misdemeanors (provided they involve employees below K 
band, and the offenses are not indicative of systemic problems). The 
waiver was based on our observation that we had accepted for 
investigation about 3 percent of these referred allegations, and had 
requested reports of results from only 10 percent of such cases 
referred to TSA for investigation.
    In fiscal year 2012, OIG received approximately 16,400 complaints 
of misconduct. Of these cases, 1,358 were related to TSA. OIG INV 
initiated investigations for approximately 90 cases, and referred 
approximately 1,268 complaints to TSA's Office of Inspection. 
Categories for complaints received include employee corruption, civil 
rights and civil liberties, program fraud, and miscellaneous.
    The effectiveness of TSA and the safety of the flying public 
depend, in part, on the agency's ability to curtail and prevent 
corruption within its workforce. While none of our work focused 
primarily on TSA's challenges in dealing with misconduct issues, we 
identified two reports that may provide some insight into TSA's efforts 
to address allegations of employee misconduct, and strengthen their 
ability to monitor employee misconduct across the agency.
    In October 2012, we issued a report, Personnel Security and 
Internal Control at TSA's Legacy Transportation Threat Assessment and 
Credentialing Office. The objective of this review was to determine 
whether personnel in the legacy Transportation Threat Assessment and 
Credentialing Office with critical roles in transportation security had 
sufficient oversight.
personnel security and internal control at tsa's legacy transportation 
               threat assessment and credentialing office
    Congressman Bennie G. Thompson, Ranking Member of the House 
Committee on Homeland Security, requested that we review the background 
investigations and suitability determinations conducted for personnel 
within TSA's Transportation Threat Assessment and Credentialing (TTAC) 
Office. TTAC was established as the lead for conducting security threat 
assessments and credentialing initiatives for domestic passengers on 
public and commercial modes of transportation, transportation industry 
workers, and individuals seeking access to critical infrastructure. In 
2010, TSA began a restructuring initiative that included an 
administration-wide review of personnel position descriptions and a 
reorganization of TSA, which realigned TTAC functions among three 
different TSA operational organizations. We reviewed the potential 
effect of these changes on oversight of legacy TTAC personnel, but did 
not review oversight of personnel from any other TSA offices or 
programs.
    We determined that TSA employee background investigations met 
Federal adjudicative standards, but were not timely. We also determined 
that within the legacy Transportation Threat Assessment and 
Credentialing Office, there has been a pattern of poor management 
practices and inappropriate use of informal administrative processes to 
assess and address misconduct. Legacy TTAC employees made allegations 
of improper conduct through formal and informal processes, including 
allegations of poor management practices and violations of Equal 
Employment Opportunity laws. While all employees said they would report 
National security vulnerabilities, some feared retaliation for raising 
other concerns.
    Senior legacy TTAC leaders sought to address allegations of 
misconduct through training and informal internal administrative 
processes, but efforts were not successful. For example, use of 
informal administrative processes did not address or expose the extent 
of workplace complaints and eventually led to internal investigations 
being managed inappropriately. Employee complaints channeled through 
TSA's formal grievance processes were managed and documented 
appropriately, but not all employees had sufficient information to 
access formal redress options. Unaddressed workplace complaints of 
favoritism, discrimination, and retaliation hindered TSA's efforts to 
streamline its operational structure and align compensation with 
appropriate authorities and responsibilities.
    Of the eight recommendations we made in this report, three were 
related to monitoring allegations of employee misconduct:
  <bullet> For a minimum of 2 years, direct legacy TTAC offices to 
        refer all personnel-related complaints, grievances, 
        disciplinary actions, investigations, and inspections to 
        appropriate TSA or DHS offices with primary oversight 
        responsibility.
  <bullet> Provide employees a Know Your Rights and Responsibilities 
        website and brochure that compiles appropriate directives on 
        conduct, processes, and redress options.
  <bullet> Establish an independent review panel reporting to the 
        Office of the Chief Human Capital Officer through which legacy 
        TTAC employees may request a review of desk audits and 
        reassignments.
allegations of misconduct and illegal discrimination and retaliation in 
                    the federal air marshal service
    In January 2010, CNN reported allegations of misconduct and illegal 
employment discrimination and retaliation in the Federal Air Marshal 
Service's Orlando field office. The reports included descriptions of an 
agency rife with cronyism; age, gender, and racial discrimination; and 
unfair treatment in promotions, assignments, and discipline. Senator 
Bill Nelson and Congressmen Edolphus Towns and Darrell Issa requested a 
review of these allegations in Orlando and throughout the Federal Air 
Marshal Service.
    While our review did not find widespread discrimination and 
retaliation within the Federal Air Marshal Service, we identified 
inconsistencies in regards to: (1) How field offices handle and report 
misconduct incidents to headquarters; (2) the severity of discipline 
decisions for employee misconduct; and (3) the timeliness for executing 
various portions of the discipline process.
    Of the 12 recommendations in this report, 3 were aimed at improving 
TSA's handling of misconduct cases:
  <bullet> Provide guidance regarding the types of incidents the 
        Federal Air Marshal Service should and should not report to the 
        Office of Inspection in an incident tracking report.
  <bullet> Provide guidance and clarification regarding how long prior 
        corrective or discipline actions should be considered and for 
        which types of incidents.
  <bullet> Develop a comprehensive system to track individual cases 
        through the discipline process.
    At the time of our review, various components within TSA (Office of 
Professional Responsibility (OPR), Office of Human Capital (OHC), and 
OOI) were working together to develop a shared database to track all 
misconduct cases.
    Chairman Duncan and Chairman Hudson, this concludes my prepared 
remarks. I welcome any questions that you or the Members of the 
subcommittees may have.

    Mr. Duncan. Thank you, Ms. Outten-Mills.
    We are going to begin the questioning portion, and Members 
are reminded we will adhere to the 5-minute rule. I now 
recognize myself for 5 minutes of questioning.
    First off, let me just say that I understand the tremendous 
challenge that TSA has in keeping Americans safe as they travel 
through the Nation's airports. But Americans expect that TSA 
will practice best management practices and that their officers 
will experience some sort of consistency in disciplinary 
action. I think that is what we owe to the employees of TSA.
    Mr. Halinski, last year you gave your word that TSA would 
take appropriate action to deal with misconduct. Over the past 
2 years, about half the misconduct cases have been closed by 
issuing reprimand letters. Do you feel that that is an 
appropriate action?
    Mr. Halinski. Sir, what I talked about last year was if we 
can prove an individual is stealing, if we can prove that an 
individual is taking drugs, if we can prove that an individual 
is intentionally subjugating the security system, and we can 
prove it, immediately they are out the door. What happens if we 
can't immediately prove it is we give them the due diligence 
any American is able to get through a process, sir, and that 
is, we run an investigation, we look at the circumstances, a 
recommendation is made for punishment, if it is appropriate, 
and then that individual has an appeal process. That is taken 
into account.
    So if the individual is given a letter of reprimand, sir, 
then it meant that he is innocent until proven guilty and we 
couldn't prove that he did that, sir. That is the various 
degrees that we have. I think it is important to note, if there 
is X number of allegations of theft, if I can prove that they 
are stealing, we are going to walk them out the door. If I 
can't, then we are going to run an investigation. I have to 
give that person the fact that they are innocent until proven 
guilt, and we have to let an investigation run its course. I 
think that is the way we do business in this country.
    If there is a letter of recommendation or suspension, it 
means that we couldn't unequivocally prove that he had done 
that, or he may have done it and there were some mitigating 
circumstances that means that he wasn't stealing. I am using 
the case stealing right now, but in all of these cases of 
misconduct that we are talking about, we labeled this 
misconduct, over one-third of these cases, time and attendance. 
People showed up late for work, sir. We are classifying it as 
misconduct.
    We have a very good workforce. We look at the process. We 
investigate it if we can't prove it. I have given you my word, 
if they are stealing, they are doing drugs, or they are 
breaching the security system intentionally and I can prove it, 
they are out, and we have taken those actions.
    The rest of the time, sir, I think it is what we have to do 
as Americans, and give them the due process, and let them go 
through the investigation process. We have shortened that. Let 
it go through an appeal process, and give them the rights they 
deserve, sir.
    Mr. Duncan. Well, I appreciate everything you said. Just 
understand that I think your workers want to see a set of 
guidelines followed. They want to see some consistency in 
disciplinary action. When you come up with a set of guidelines 
that this is the disciplinary action that is going to happen 
for XY&Z infractions, then there has to be some sort of 
consistency with that. I think that is important. I think 
Americans see a slap on the wrist for some of those infractions 
as not enough disciplinary action being taken.
    So I would just say that going forward implementing a lot 
of things GAO has recommended is the right thing, and I 
appreciate your comments that you are working on that. I look 
forward to hearing back from you in the future about how that 
is working out.
    According to GAO, 4 percent of the screening and security 
misconduct cases involve sleeping on duty. I understand some of 
that may have been in the break room while they were on break, 
and I get some of that. But, you know, officers that are 
sleeping on duty, and as you mentioned those that just fail to 
show up for work on time, that frustrates Americans because, 
the way I understand it, if an officer fails to show up on time 
or fails to call their supervisor and say, look, I am taking a 
leave day or a family day, it takes X number of persons to open 
up a checkpoint. Any delay of someone not showing up on time or 
not showing up at all causes delay for the American travelers 
by that checkpoint not being opened on time and properly 
screening in an expedited manner.
    So how do you go forward with that sort of idea, that we 
have got to have employees show up on time, we have got to have 
them actually show up for work, and if they don't, if they fail 
to let their supervisor know, that is important to America's 
safety and security. So what is the disciplinary action you 
would take at that point?
    Mr. Halinski. Well, sir, first I would like to say that it 
starts with training and education, and we have put together 
through our Office of Training and Workforce Engagement a very 
robust ethics and integrity training program, and also a 
training program for our entire workforce, because that is how 
we get to an efficient workforce in the future, a high-
performance workforce. We have put together a very substantial, 
required training that all TSOs have to go through.
    Mr. Duncan. How do you train? I am baffled. How do you 
train someone to know to call their supervisor and tell them, I 
am not going to be at work, or I may be a little late? That is 
common sense.
    Mr. Halinski. Yes, sir, it is common sense. I would tell 
you that we have ethics training, we have integrity training, 
we have situational training on videos for our people. We are 
trying to train a workforce that is about 47,000 screeners, and 
they have to do their job and they have to be trained. They hit 
that training on an annual basis. We stress it, sir. We put out 
messages.
    I will tell you, sir, on the issue of tardiness, you are 
right. I am not going to disagree with you. Everybody should be 
on time when they come to work. If they are not, they can be 
disciplined in the case of TSA. I don't think it is an offense 
that they need to be fired of unless it is the third, fourth, 
or fifth time and it is a consistent pattern. Hopefully, the 
first time gets the word. A letter of reprimand, it is not 
something you should take lightly. A letter of reprimand means 
that you are not going to get a bonus that year, possibly. You 
are not going to get promoted. It is going to stay in your 
jacket. It is a serious thing, sir, and it escalate from there. 
A suspension, it is a serious thing, and we take this serious, 
sir, I mean we do.
    When you look at the numbers and the percentages, I do have 
a large workforce, sir, and I can't control the behavior of 
everybody. We can train them. We can hold them accountable. 
That is what I believe we are doing, and we have a good 
workforce, sir.
    Our people take an oath when they come into service, it is 
the same oath that you take, sir, as a Congressman. We raise 
our right hands and we commit to that. The one thing that I 
find very good about our workforce is year in and year out 
there is that Federal employee survey that they have. TSA 
morale-wise, people will say, well, you are in the low 
percentages. But do you know what we are every year, sir, 80 
percent and above? The belief in our mission. That mission is 
to protect the traveling public.
    We will have people that will do stupid things, guarantee 
it, sir. I was a Marine for 25 years, we had knuckleheads that 
did stupid things on the weekends or other times. That is going 
to happen. We will hold them accountable, sir. I have told you 
that, and I am committed to it. So is Mr. Pistole.
    Mr. Duncan. Well, I look forward to hearing about how they 
are held accountable going forward based on some of the things 
we are hearing.
    I am out of time, so I am going to yield now to--since we 
don't have the Ranking Member of the subcommittee--to Mr. 
Thompson, the Ranking Member of the full committee.
    Mr. Thompson. Thank you, Mr. Chairman.
    Ms. Outten-Mills--hope I pronounced it okay--last fall the 
OIG reported on the mishandling of the Equal Employment 
Opportunity Commission complaints within TSA's legacy 
Transportation Threat Assessment and Credentialing office. Now, 
in response of the allegations of favoritism and EEO 
violations, the Inspector General recommended that TSA 
establish an independent review panel through which legacy TTAC 
employees could request a review of desk audits and 
reassignments. Why did the Inspector General believe this 
recommendation was important?
    Mr. Halinski. Sir, is that for me or the IG?
    Mr. Thompson. The IG.
    Mr. Halinski. Thanks.
    Ms. Outten-Mills. During our review of TTAC we found that 
there was favoritism being shown for various different 
employees. We found that TTAC had--there is a formal TSA 
process in place for handling allegations and complaints, but 
within TTAC they had developed a system that circumvented the 
formal process where employees, many of the employees weren't 
even aware of what the TSA's formal process entailed. As part 
of that, as part of what we found was happening in TTAC, 
employees were being removed from their positions into other 
positions that had no responsibilities.
    Now, TSA started in 2010 a restructuring and realignment 
which included legacy TTAC employees. So for those employees 
that in past years had been downgraded when their position 
descriptions and their current roles are reviewed, it might 
result in downgrades. So our recommendation would--what we 
wanted to address was the fact that there could be seen as no 
favoritism, that there could be an equal playing field in 
reviewing TTAC's current positions and the roles, and that 
there would be some fairness in the system.
    Mr. Thompson. Now, can you tell me whether or not since 
that recommendation was put out, have you worked with TSA and 
have some of your concerns been satisfied?
    Ms. Outten-Mills. We have worked with TSA, and the formal 
written response that TSA provided is responsive to our 
recommendation to create this independent review panel over the 
desk reviews. What we are waiting for right now, we are 
monitoring what TSA is doing, but the response that they 
provided to us did address our concerns if they put that in 
place.
    Mr. Thompson. Okay. Mr. Halinski, you can take the other 
part of that. What you have just heard, is that basically where 
you are?
    Mr. Halinski. Yes, sir. In fact, I would like to say also 
that TTAC does not exist any longer. That organization was 
integrated into our Office of Intelligence, that the 
individuals at the senior level no longer work for our agency. 
We took those recommendations on board, we believe we have 
worked with the IG on this, and we will continue to work with 
it.
    The piece on the desk audits, we did go through a 
restructuring transformation within our headquarters over the 
last 2-year process where we have done desk audits of 
individual positions. We think that is in line with Government 
policy. We believe that that also met those requirements from 
that particular case, sir.
    Mr. Thompson. Thank you.
    I want to talk a little bit about the mishandling of 
sensitive security information. In July 2010, a new hire 
training manual containing sensitive security information about 
screening practices was stolen after a private security company 
employee removed it from the San Francisco International 
Airport without authorization.
    Mr. Halinski, what is the recommended penalty for a TSO who 
mishandles sensitive security information?
    Mr. Halinski. Sir, for a TSO that mishandles SSI 
information it can range from a letter of reprimand to a 14-day 
suspension, sir.
    Mr. Thompson. Letter of reprimand----
    Mr. Halinski. There is a range in between, from a 14-day 
suspension to a letter of reprimand, sir.
    Mr. Thompson. Okay. What is the recommended penalty for a 
contract screener who mishandles sensitive security 
information?
    Mr. Halinski. For a contract screener, sir, we do not deal 
directly with the contract screener. We deal with the company 
under contractual procedures. The contracting company could be 
fined for that particular type of incident, sir.
    Mr. Thompson. So you fine the company but you don't deal 
with the employee?
    Mr. Halinski. No sir.
    Mr. Thompson. I yield back.
    Mr. Duncan. I thank the Ranking Member.
    The Chairman will now recognize the Chairman of the 
Transportation Security Subcommittee, Mr. Hudson, for 5 
minutes.
    Mr. Hudson. Thank you, Mr. Chairman.
    Mr. Halinski, one of the things in the GAO report that 
concerned us was the idea of staff not complying with policies 
and procedures for adjudicating misconduct. Some of the cases 
have even been overturned because staff at airports did not 
document sufficient evidence or properly apply penalty factors. 
Whose responsibility is it to review misconduct cases at 
airports?
    Mr. Halinski. Yes, sir. Let me give you a two-prong answer 
on that. It depends on the severity of the case, sir. But I 
also want to say that the transportation security officers, if 
they are found guilty of anything, have the right to appeal 
under our OPR Appellate Board. So if there is an incident and 
it is, let's say, tardiness for work, the process is handled at 
the airport at the local level. If it is a more severe case, it 
will be handled with our Office of Investigation. It will be 
looked at through our Office of Professional Responsibility. If 
it is a serious case and a recommendation will be made, then 
the individual has a right to appeal that.
    There is one difference, sir, as was mentioned earlier. Our 
TSOs, under ATSA, do not have the right for MSPB appeal. But 
what we have created to ensure that there is equity in the 
process is we have given them the ability--and we have had 800-
plus TSOs use this--appeal to our OPR Appellate Board. It was 
mentioned by Mr. Lord that about 15 percent there was a 
turnover of those appeals. That is about the same amount, 
roughly the same percentage that MSPB has. So we believe we are 
in line with that.
    We have to give our people an appeal process. So we put 
that in place. But there is a process. We recognize what GAO 
said, sir, and we are putting into place, by and large, most of 
the four recommendations that they have made we have put into 
place, we feel that they will be complete some time by the end 
of September, beginning October. We welcome GAO to come back 
and take a look at what we have done. I think it is a much 
tighter system with a lot more oversight at this point, sir.
    Mr. Hudson. Great. Well, just to understand, so the Federal 
security director's role then would be to sort of determine is 
this violation important enough to kick it upstairs or do I 
deal with it here? Is that----
    Mr. Halinski. Yes, sir.
    Mr. Hudson [continuing]. That sort of the role?
    Mr. Halinski. Yes, sir.
    Mr. Hudson. Okay. What steps has TSA taken to remedy this 
problem in particular of the failure to document correctly 
these incidents?
    Mr. Halinski. Well, I think, sir, one of the things we had 
to do was we had to clean up the database and we had to make it 
a much more efficient database. It is one of those things that 
sometimes you run into Government where you have multiple 
databases. So we have combined it into one, which we call our 
Integrated Database. We have made it a much stronger process. 
We have professionals who are trained, H.R. people who are 
trained to input it in. Then there is oversight to make sure 
that it is being inputted in correctly.
    Our FSD is responsible for auditing all inputs. We also 
have our legal field counsel there to help with inputting those 
offenses into the system, and then our Office of Investigation 
and our Office of Human Capital are responsible for doing spot 
audits. We have asked that they put out a regular schedule on 
that and increase that. So we have four levels of oversight 
now. We think that will fix the problem that was identified by 
the GAO.
    Mr. Hudson. Great. Pivoting a little bit, how does TSA 
recruit airport personnel, and what are some of the key 
qualifications that TSA looks for? Has this evolved over time? 
Has this changed?
    Mr. Halinski. Sir, I would tell you we use a variety of 
methods to recruit personnel. We use the normal USAJobs, we use 
social media to recruit our personnel. But let me talk a little 
bit, because I think in the context of this hearing, what is 
important is how we hire our personnel.
    First off, they are fingerprinted. There is an NCIC check, 
a Federal criminal record check that is done. There is a credit 
check done of our personnel before they come in. Then there is 
an interview with a manager for suitability. Then, at a certain 
point, there will also be an interview by our personnel 
security people because we want all of our people to have the 
potential to hold a security clearance.
    That being said, sir, as you have seen and as evidenced by 
the GAO, we are going to have people that sometimes do stupid 
things. I think that is endemic with the entire system when you 
have security clearances or anything else. We believe that we 
do the due diligence through two different types of interviews, 
fingerprinting, credit checks to bring people on-board to work 
as TSOs.
    Mr. Hudson. I thank you for those answers.
    As my time is running down I will go ahead and yield back, 
and then hopefully we will have a second-round opportunity to 
ask questions. Thank you.
    Mr. Duncan. The Chairman will recognize the gentlelady from 
Indiana, Mrs. Brooks, for 5 minutes.
    Mrs. Brooks. Thank you, Mr. Chairman.
    This question is to you, Mr. Halinski. I understand that 
there is a table of offenses that is provided to all of the 
airports and the supervisors that sets out kind of appropriate 
suggested discipline for offenses and penalties for misconduct 
cases. However, the GAO report indicated that there have not 
been, it has been fairly inconsistent in the manner in which it 
is used among the airports when issuing the penalties. Can you 
talk about that lack of consistency in the use of this table of 
offenses and the recommended penalties?
    Mr. Halinski. Yes, ma'am. I think it was important when Mr. 
Pistole came in, he created the Office of Professional 
Responsibility modeled on the office that is in the FBI. Quite 
frankly, we built the table of offenses and penalties based on 
many systems that are in the Government and other agencies, not 
just within DHS, but other outside departments. It goes, once 
again, back to the seriousness of the offense.
    What you have is a range of options. What is the offense? 
It may go from this level to the most extreme level. If it is a 
serious offense, it is taken out of the hands of the local 
airport and it is given to our Office of Investigation, which 
is then adjudicated by our Office of Professional 
Responsibility. If it is an offense such as you are out of 
uniform when you come to work, you are late for work, you may 
have mouthed off to a supervisor, then it is handled at the FSD 
level.
    Now, I think what is important to remember is before we had 
this table, before we had OPR, the TSO had no appeal rights in 
any case that was out there. Now they have the right to appeal, 
and they can go to that OPR Appeals Board and say, I believe 
based on my time in service, by my clean record, by the 
evidence I have provided you, that I shouldn't be held 
accountable for this. So there is an appeal process which is 
based on OPR, based on that table that was built. It has been a 
very helpful tool for us.
    Mrs. Brooks. I think my concern might be, and I have also 
been Federal Government, I was a U.S. attorney and often 
working with the AOUSA, if there were any discipline issues 
with respect to my employees at the time, they often wanted to 
compare what our discipline might be to other U.S. attorney's 
offices' discipline, and that is very important when you have 
large agencies like TSA. So I guess the concern is: How often 
are airports issuing penalties that are varying from those 
tables and how are you keeping track of that? Because I think 
that opens the agency up for a lot more problems beyond the 
appeals process, the inconsistency of penalties. So to your 
knowledge how often are the airports, you know, wavering from 
that table?
    Mr. Halinski. Yes, ma'am. What we are trying to do through 
that process that was recommended by the GAO is we have made a 
much stronger Integrated Database so that we can track that 
information now. The one piece that I think is very important 
is the ability to do trend analysis. Basically what you are 
talking about is one airport not doing things similar to 
another airport. We believe some time in the fall, I think end 
of September, early October, we are going to have that 
capability to do trend analysis. The key is oversight, it is 
oversight by the headquarters. We have our Office of 
Investigation and our Office of Human Capital. It is dedicated 
to that type of analysis and those spot audits, which I think 
are very important, ma'am.
    Mrs. Brooks. Is that how you determine if people, though, 
aren't using the Integrated Database that you are referring to, 
that I heard that some--that was also part of the GAO report, 
is that some airports aren't using it----
    Mr. Halinski. Yes, ma'am. What we found was--and I think 
when you go in, and Mr. Lord can correct me on this--but when 
you went in, it wasn't that they weren't using the system for 
serious offenses. What we found when we went back in is the 
lower the offense, or if it wasn't--we need to have that 
information so if someone moves across airports, as was 
mentioned earlier, we can keep track of that. At some airports 
it wasn't being done. It has been tightened in a management 
directive that has gone out and it is inspected when we inspect 
our airports.
    I might also add one other thing which I think is very 
important. Our Office of Professional Responsibility now puts 
out a newsletter every month, and it lists for our entire 
workforce what the offenses were and what the actions were and 
what the adjudication was. We also include the number of covert 
tests that we do for integrity. I think it is important because 
it sends a signal to the workforce that if you do this, this is 
what happens. But I think it also sends a signal to the 
workforce that we have consistency across the board.
    Mrs. Brooks. I think that is a great way to communicate 
with your workforce, and I applaud you for doing that.
    I yield back.
    Mr. Duncan. I thank the gentlelady.
    The Chairman will now recognize the gentleman from Florida, 
Mr. Mica, for 5 minutes.
    Mr. Mica. Well, thank you so much. I want to thank you and 
also for Mr. Hudson for holding this hearing.
    I had been an original requester of this report by GAO 
because, again, having been involved in creating TSA, I was 
concerned that some of the public reports we had of misconduct 
were mounting. This report does, in fact, confirm that TSA 
employee misconduct has spiraled almost to an unbelievable 
level, and that is very disappointing.
    Mr. Halinski, you pointed out that TSA actually with Mr. 
Pistole's ascension instituted two offices. What were they?
    Mr. Halinski. The Office of Professional Responsibility and 
the Office of Training and Workforce.
    Mr. Mica. When did he institute those?
    Mr. Halinski. Approximately 2 years ago, sir.
    Mr. Mica. Okay. In the last 3 years, Mr. Lord, you reviewed 
this. What is the increase in incidents over that 3-year 
period? Percentage of increase?
    Mr. Lord. It is 27 percent.
    Mr. Mica. I have used 26, but 27 percent. So maybe we 
should go back to not having that office. We were probably 
doing better before. But you have instituted, again, these two 
offices and we have actually had a 27 percent increase.
    I mean some of the incidents have been totally 
embarrassing, embarrassing to the thousands of TSA employees 
that get up and do a good job every day. Orlando airport, they 
featured--which is one of my airports, local airports--an 
employee was caught in a media sting stealing a computer. There 
is another case I think in your report, Mr. Lord, of, again, 
theft there. We have the Newark situation was so embarrassing, 
the supervisor was advising the TSA employee on how to steal 
contents of passengers' luggage. Again, this has been totally 
embarrassing for everyone.
    So I think one of the Members on the other side said this 
involves about 6 percent of the employees given the 9,000 
incidents over 3 years? I mean, that is the figure that was 
used by the other side. Not to mention how many criminal 
incidences and arrests of TSA employees, which isn't 
acceptable.
    Now, the other thing this report identifies, and it was 
sort of glossed over, it is just I guess 32 percent of the 
offenses are attendance and leave, unexcused or excessive 
absences. Is that right Mr. Lord?
    Mr. Lord. Yes.
    Mr. Mica. Okay. These aren't just missing a day or two, 
these are more extensive offenses. Would that be correct?
    Mr. Lord. Actually I think it varies, but it does include 
some more egregious cases.
    Mr. Mica. Well, the problem you have, too, is you don't 
have standard reporting, which your report said. Is that right?
    Mr. Lord. Yes, that was one of the issues.
    Mr. Mica. So actually I think that the number of incidents 
that are reported, 9,600, because we have such a variance 
probably underreports what is actually taking place. Would that 
be an appropriate assumption, Mr. Lord?
    Mr. Lord. That is one of the issues we identified in our 
report, a lack of consistent reporting.
    Mr. Mica. But it would indicate that they are not all 
reported. This 32 percent doesn't sound like much of an impact, 
an unexcused absence, but it throws the whole system into 
chaos. People don't show up for work. How can you properly 
screen folks? Mr. Lord, for the record, is shaking his head in 
the affirmative.
    Mr. Lord. I think it depends on particular facts and 
circumstances. It does have the potential to disrupt screening 
operations.
    Mr. Mica. Right. The other thing, too, is the cost. Mr. 
Halinski, do we still have a National screening force that we 
send in at great taxpayer expense to make up where you don't 
have screeners?
    Mr. Halinski. Sir, we do have a National screening force.
    Mr. Mica. How many millions of dollars does that cost us a 
year? I asked you this I think at another hearing and you 
couldn't answer. Can you answer today?
    Mr. Halinski. Yes, sir, I can answer today. I would tell 
you that that screening force has been reduced to approximately 
250 personnel.
    Mr. Mica. What is the cost? Again, for the record, and, Mr. 
Chairman, I would like in the record the cost of this National 
screening force, if you could provide it to the committee, for 
the past 3 years. Because, again, it is disgraceful that people 
don't show up for work, there is great cost to the taxpayers 
and great disruption.
    A couple of quick closing comments. Are you still 
recruiting people from ads on the top of pizza boxes and ads on 
discount gas pumps for employment at TSA?
    Mr. Halinski. No, sir, we are not.
    Mr. Mica. Okay. That has stopped. Then the fingerprint 
check and all of that, I would like to--I will put in the 
record a letter from one of my sheriffs that notified me that 
two people he disciplined for misconduct he next found employed 
at the Daytona Beach airport. If you would, I would like that 
made part of the record. Thank you.
    Mr. Duncan. Without objection, so ordered.*
---------------------------------------------------------------------------
    * The information was not available at the time of publication.
---------------------------------------------------------------------------
    Mr. Duncan. The gentleman's time has expired, so we will 
enter into a second round of questioning here.
    Mr. Lord, the other side of the aisle was talking about 
private companies that are doing security screening. Is there 
an incentive for the private companies to keep folks employed 
that have stolen or continue to show up at work not on time?
    Mr. Lord. I don't think there is an incentive if the 
company is private or Federal, if you have problematic 
employees.
    Mr. Duncan. Mr. Halinski just testified a few minutes ago 
that there is a financial penalty for companies that, you know, 
someone in their employ has stolen or show up not on time and 
that sort of thing. So I would say for the record there is a 
disincentive for the private companies to continue those 
practices.
    Mr. Lord, many of the offenses that the TSA employees have 
been accused of could have led to severe aviation security 
risk. Is there any evidence that due to an employee's direct or 
indirect action security at an airport was breached?
    Mr. Lord. Well, by definition 20 percent of the cases we 
looked at were labeled security- and screening-related. So 
obviously we believe those cases do have some nexus to 
security. But again it all depends on the particular 
circumstances of the case. But those are the ones I view as 
more serious compared to the cases related to time and 
attendance.
    Mr. Duncan. Of the 56 cases of theft and unauthorized 
taking from 2010 to 2012, 31 resulted in termination, 31 of the 
56 resulted in termination, 11 resulted in letters of 
reprimand, 11 resulted in suspension of a defined period, 2 
resulted in indefinite suspension, and 1 resulted in a 
resignation.
    Mr. Lord, despite the recommended penalty range for these 
offenses, not including termination, Deputy Administrator 
Halinksi told the committee last year that TSA took that 
seriously and TSA could prove it, the TSA would terminate those 
who would steal. Do you see that happening in your report?
    Mr. Lord. Yeah, that is a good question. I believe under 
the updated guidelines if there are mitigating circumstances a 
letter of reprimand is one possible option. But, again, it 
depends on the circumstances. So I think there is some leeway 
there under the new----
    Mr. Duncan. I understand extenuating circumstances and some 
of the appeals process and proving it and whatnot. I guess 
Americans would be frustrated continuing to see letters of 
reprimand versus termination when theft is proven. I want to 
make sure that TSA does follow through with their protocol.
    I want to go back to the private screening, the private 
contractors issue. I came from the private sector and there was 
an incentive to do things right and also to have customer 
satisfaction with people we did business for, to apply the best 
management practices, and there was a disincentive if we failed 
to do what we said we were going to do. There was a 
disincentive for me if one of my employees didn't show up at 
work on time and we weren't able to conduct--we did auctions--
and we weren't able to conduct those in the time that we said 
we were going to and there were delays, both on the buyer's 
side and the seller's side.
    So I think prompt and appropriate action and consistency is 
very, very important. I think that is what your GAO report 
points out over and over, that we need to be consistent. I 
think in the private sector you see when companies don't 
provide consistency with regard to disciplinary action then 
that opens them up to a possibility of lawsuits, because I 
think in a personnel situation you have to have consistency. 
You can't show preferential treatment from one employee to the 
next. We shouldn't be able to do that in the public sector as 
well.
    So I don't really have anything further. So with that I 
will recognize the gentleman from Mississippi for 5 minutes.
    Mr. Thompson. Thank you, Mr. Chairman. I appreciate your 
interest in my question. What I want to do is make sure we keep 
it in the right lane.
    My only question dealt with sensitive security information. 
It did not deal with time and attendance or anything like that 
in the private sector. It is sensitive security information. 
That kind of information, we all agree, is something that is 
far more serious than someone not showing up for work.
    Now, as important for me in this conversation is whether or 
not, Mr. Halinski, you saw the fact that in the contracting 
with TSA with private contractors, because you did not have the 
ability to deal with personnel found guilty of that, have you 
now changed the contracting document with TSA to get you to 
where you need to be?
    Mr. Halinski. Yes, sir. We have changed the contract for 
all new contracts for SPP airports, and there is a clause in 
there that requires them to report any type of misconduct 
activities of their workforce, and we also require in this new 
language that if an employee is identified as with misconduct 
that appropriate action needs to be taken by that company, sir.
    Mr. Duncan. Will the gentleman yield?
    Do you have the ability to terminate a contract--it is 
following up on what he was asking--of a private contractor if 
you find misconduct on the employees?
    Mr. Halinski. No, sir. I do not believe that we do. But I 
could get you a more thorough answer. I am not an expert on 
contracting. I wish I could give you a better answer. But I 
will get you one on that one, sir.
    Mr. Duncan. I yield back. Thank you.
    Mr. Thompson. Thank you.
    Ms. Outten-Mills, we have talked a lot about TSA. What has 
been your analysis in reviewing other components of DHS with 
respect to claims of misconduct? Is TSA higher? Lower? In the 
middle? Can you provide some direction to this board?
    Ms. Outten-Mills. Sir, the body of work that we have 
conducted in OIG at this point has not focused on misconduct 
and allegations. Even with the TTAC job and the FAM project 
that we conducted, we basically looked at pre-adjudication and 
the policies and procedures that were in place to make sure 
that credible allegations were able to enter the process. As 
far as how agencies have----
    Mr. Thompson. So you really can't.
    Ms. Outten-Mills. No, we have not.
    Mr. Thompson. Okay. Well, Mr. Lord, the reference to this 
increase in complaints, did you change the matrix for review or 
is it the same matrix all along?
    Mr. Lord. I am not sure I understand your question, sir.
    Mr. Thompson. Well, you say you had a 26 percent increase, 
I believe.
    Mr. Lord. Over 3 years, yeah, that is what the data clearly 
shows. It is actually 27 percent.
    Mr. Thompson. All right. Is that the same that you 
generally do?
    Mr. Lord. Oh, you mean when compared to other DHS 
components?
    Mr. Thompson. Yes.
    Mr. Lord. We didn't do that analysis, but I think it is 
important to recognize all the other, for example, Customs and 
Border Protection, that they have a different mission, 
different organizational setup, it would be difficult to make 
direct comparisons, but for purposes of our report we did not 
include that information. That was outside the scope.
    Mr. Thompson. Comparison with coming to work, that is in 
any agency, right?
    Mr. Lord. Oh, on time and attendance. I thought you meant 
screening- and security-related violations. I have no 
comparative data available to----
    Mr. Thompson. Would you, if you did CBP or anybody, would 
you do time and attendance as part of the review?
    Mr. Lord. Oh, yeah, definitely, definitely.
    Mr. Thompson. So you have not in your capacity performed 
any have those time and attendance reviews for any other 
agency?
    Mr. Lord. We have not done that currently. We would be 
happy to work with your staff if you are interested in having a 
follow-up review conducted on that.
    Mr. Thompson. Well, I am concerned about the increase at 
TSA. But if this situation is peculiar to other agencies, I 
would like to know it also.
    Mr. Lord. Understood.
    Mr. Thompson. So I yield back.
    Mr. Duncan. I thank the gentleman.
    The Chairman will recognize the gentleman from North 
Carolina, Mr. Hudson, for 5 minutes.
    Mr. Hudson. Thank you, sir.
    Mr. Halinski, in terms of the amount of time it takes to 
get through an entire investigation and adjudication process, 
what has TSA done to streamline this process? Can TSA be doing 
more? What is the maximum amount of time a TSA employee can 
remain on the job while his or her case is being investigated? 
If, for example, a screener was accused of failing to follow a 
standard operating procedure at a checkpoint, would that 
individual be allowed to continue to work the checkpoint or 
would they be given other responsibilities until the 
investigation is completed? How does that process work?
    Mr. Halinski. Yes, sir. It depends on the seriousness of 
the offense. If you are talking about an offense that is on the 
administrative side and not the criminal side, then the local 
airport will conduct its investigation, they will take 
statements, they will put the evidence together. It is not a 
long process, sir, quite frankly. We are not talking about an 
investigation where you are going in and it takes months at a 
time.
    The more serious offenses that come up, that is when you go 
to our Office of Investigation. We have made great strides in 
that area since last year. In those cases we are running, in 
more than 50 percent of the cases, under 90 days to conduct a 
full criminal investigation on these folks and send it to our 
Office of Professional Responsibility.
    Mr. Hudson. So if someone is in one of these serious 
investigations, are they reassigned to a different duty point?
    Mr. Halinski. Yes, sir. While they are in that status they 
can be put on administrative leave, they can be suspended, they 
can be put on at a different part of the airport in a 
nonscreening role. There is a variety of ways. If the 
allegations are serious enough, they are not kept on the line, 
they are moved out while the process takes place, sir.
    Mr. Hudson. Okay. How many TSA employees are currently on 
administrative leave for a process like this?
    Mr. Halinski. Sir, I do not have that number. I will get 
back with you. I would tell you that we don't like to put 
anybody on administrative leave because that means that people 
are getting paid for not working. So we do try to find other 
duties for them. But I will get back with you on that number. I 
don't have that number right off-hand, sir.
    Mr. Hudson. Okay. Appreciate that.
    Shifting gears a little bit, as I understand current 
policy, if a screener fails a covert test conducted by TSA's 
inspectors, the screener is retrained and allowed to continue 
screening passengers at the checkpoint. If a screener fails a 
covert test conducted by GAO inspectors, the screener is 
neither notified right away nor pulled off the line. In both 
cases, the screener in question does not receive a suspension 
or other penalty.
    I recognize there could be a variety of reasons why someone 
fails one of these tests. However, there are certain cases 
where after careful review of the circumstances it would be 
appropriate for a screener who failed a covert test to be 
suspended. After all, TSA's sole purpose is security and the 
tests are in place to identify security weaknesses.
    As TSA makes its headway towards risk-based security, I am 
concerned that a security failure at a checkpoint or the 
genuine--or a test--could set us back tremendously. It only 
takes one mistake to get a bomb on a plane, for instance.
    Now, the ability of screeners to detect explosives and 
other threats and the confidence of the American public is 
fundamental to the success of risk-based security. Would you 
agree, Mr. Halinski, to revisit the policies and procedures for 
holding accountable those screeners who fail a covert test?
    Mr. Halinski. Yes, sir. Let me talk a little bit about 
covert testing. Covert testing I think is one of the very solid 
quality assurance programs that we have had. I believe the 
numbers are over 6,000 covert tests that we have done over the 
last several years. The other thing about covert testing, like 
any red team organization in any organization, you know exactly 
where the weaknesses are, you know how to build the devices so 
you can make it as difficult as possible.
    I am not going to go into a whole lot of detail 
specifically about the tests but I will address your question 
because we keep that classified for a reason. Because threat, 
they pay attention to what we do, and they will use it against 
us. We have seen it consistently.
    Now, when we have someone who fails a covert test, we try 
to--particularly with our covert testing--we take them off the 
line and try to do immediate quality assurance. If we see a 
trend, sir, we understand people can make a mistake. Let me 
give you an example, sir. If someone puts a test device, let's 
say in a groin area, and it is a small device, sir, I think you 
have seen that device, and they do a pat-down and it is clearly 
not a pat-down that is going to find that device, then we take 
immediate action and tell that individual, look, you need to do 
a better job on that pat-down.
    We will look at that, sir. I will tell you that anybody who 
fails tests consistently is going to be in trouble in the 
organization, sir.
    Mr. Hudson. I appreciate that, but obviously one failed 
pat-down could lead to a horrible disaster for the public.
    Mr. Halinski. We do understand that, sir, and that is one 
of the reasons why we have, and I think it is important to 
recognize, that we have a system of security that is multiple 
layers. It is a defense in depth. We have to have that. Because 
if we only have one point and we based it on one point, it is a 
single point of failure. That is why we have our dogs, that is 
why we have our BDOs, that is why we have our FAMS, that is why 
we have our intelligence system that vets beforehand. You have 
to have a defense in depth. Anybody that has been involved in 
security understands this. It is like football, sir. If you 
only have one person on the line and you don't have backs or 
you don't have linebackers, you are going to be in trouble. 
That is what we have, a defense in depth. So we try to overlap 
that, sir, and ensure that that one failure doesn't happen, 
every single day, 1.8 million times a day, sir.
    Mr. Hudson. I appreciate that.
    My time has expired, Mr. Chairman. I yield back.
    Mr. Duncan. I thank the gentleman.
    The Chairman will now recognize and welcome back the 
Ranking Member, Mr. Barber, for 5 minutes.
    Mr. Barber. Thank you, Mr. Chairman.
    Mr. Halinski, I would like to ask you a few questions about 
the procedures that were addressed or referred to by the GAO in 
their recent report. The GAO indicated that the TSA does not 
have procedures to identify allegations of misconduct that have 
not been adjudicated. In other words, there could be 
allegations of misconduct that have never been resolved. So I 
have a series of questions related to that.
    Can you say how many there are remaining that have not been 
adjudicated? Second, an average length of time that those have 
been pending? How does the agency plan to address this issue 
going forward?
    Mr. Halinski. Sir, to the best of my knowledge, we have 
taken what the GAO said to heart. We have made those changes. I 
don't believe we have any cases that are outstanding.
    The process we use now is automatic. With this Integrated 
Database, if you go through the process, there is a system of 
checks and oversight by our Office of Human Capital, by our 
Office of Investigations, and by other Office of Professional 
Responsibility. When a case is closed, the system now 
automatically goes back to every one of those offices so 
everybody understands that the case has been adjudicated and is 
put in their records. We took that to heart, we made that 
correction, and it is in place, sir.
    Mr. Barber. The standard procedures that are now in place 
so that we have what we hope is non-arbitrary or fair across-
the-board actions being taken, can you say what a one strike 
you are out looks like?
    Mr. Halinski. Yes, sir. We catch an individual--now, let me 
go back to covert testing, sir, that we are doing for 
integrity. We have a screener on the line, we have one of our 
covert testers go through, he has an iPad that he decides he is 
going to put in his pocket. As I said earlier, the vast 
majority of our people are good people that don't do that. But 
when that happens, sir, and we have absolutely proof that he 
stole that item, it is 24 hours he is out the door. We have put 
that into effect, sir.
    Drugs, another case. You are caught with drugs, on the spot 
we can put you out and we have done that. Now, if it involves 
an investigation in drugs, there is an investigation involved, 
if I can't immediately prove it, sir, we have to do due 
diligence for our people. They are innocent until proven 
guilty. That takes a little bit of time. But we do give them 
the benefit of the doubt in those cases until the proof shows 
otherwise, sir.
    Mr. Barber. What if the infraction has to do with putting 
the public at risk? In your covert investigations someone came 
through with essentially an explosive, is that a one strike you 
are out?
    Mr. Halinski. Sir, if someone is intentionally trying to go 
against the security practices, if he is intentionally trying 
to bypass that system, yes, sir, it is. We have had instances 
of that in the last year, sir, and those people have been 
removed.
    Mr. Barber. Well, let me go to a different aspect of this. 
This is a question or an issue we have raised before in other 
hearings with the Department, and that is the concern that I 
have and I think the public has about transparency and 
accountability with the Department, or on behalf of the 
Department. I guess I am really concerned about how it is that 
we have transparency in ensuring the public that these matters 
are investigated. I realize there are personnel restrictions or 
privacy concerns but, you know, the GAO report is now a public 
document. People have a right to say, that is not good, what 
are we doing about it? What can the Department do more than it 
has already done to ensure transparency with the American 
people?
    Mr. Halinski. Sir, and I will get to that that question, 
sir, but first let me say we are a very large organization and 
we are an organization probably that is in the public eye more 
than any other Government organization right now. We see the 
traveling public 1.8 million times a day, so we are very 
visible. Every time, sir, and we have very good people who do a 
good job every day, every single time we have one knucklehead 
who decides he is going to do something bad it tarnishes the 
image of our organization.
    But at the same time, sir, let me point out the fact that 
last year over 10 of our TSOs saved people's lives either in 
the airport through CPR, by helping accident victims, by 
pulling people from burning cars, by talking down a pilot in a 
general aviation aircraft. You never hear those stories, sir. 
You very rarely hear them. I think that is important when you 
are talking about image and you are talking about transparency, 
you have to take the good with the bad. When you look at the 
actual percentages they are very low and comparable to any 
other Government organization. I have my people on the line 365 
days of the year. They know if they fail, someone could die.
    Mr. Barber. Can I just make sure we have the answer to the 
question about transparency? The GAO report is public. The 
media has it. The public will soon understand what is in it. 
What can you do to assure the American people that the issues 
that are raised in that GAO study and report have been properly 
dealt with? Transparency in that regard is what I was really 
referring to.
    Mr. Halinski. All right, sir, I appreciate that. What I 
would tell you is what I said earlier, is that we absolutely 
embrace the comments made by the GAO. We are in the process and 
have almost completely taken those on-board and completed 
those; we believe they will be complete by the end of 
September, October. There is one big piece that we are looking 
working on as far as trend analysis. I am sitting here on C-
SPAN and I am telling you that we embrace them and we are going 
to do them, sir.
    Mr. Barber. Thank you.
    Mr. Hudson [presiding]. The gentleman's time has expired.
    At this time the Chairman will recognize the gentlelady 
from Texas, Ms. Jackson Lee, for 5 minutes for any questions 
she may have.
    Ms. Jackson Lee. Mr. Chairman, let me thank you very much 
for what I think is a vitally important hearing. Let me thank 
the Ranking Members and the Chairman, Mr. Duncan, and the full 
committee as well.
    The American people deserve the sense of trust and respect, 
both as they travel, but also for the employees and the 
officers, as I call them, that they work for. I am very pleased 
that post-9/11 we can actually that say that we have a trained, 
uniform, professional workforce called transportation security 
officers with SOPs, standard operating procedures which they 
must abide by, that we can even have an assessment of the bad 
apples versus the good apples.
    Now, I would offer to say, as I have always said, Mr. 
Halinski, to Administrator Pistole, you have heard me say this, 
let's print the good stories, let's not hide the good stories. 
That should be part of an obligation of management, that should 
be an SOP, standard operating procedure, report the good 
stories, because I think it balances what, as you have 
indicated, the difficulty, but also the numbers that come up 
for those who are bad apples with the mountain of success 
stories and operational excellence that occurs in the airports 
every single day, even as we speak today.
    I have a series of questions that relate to that, and I 
just want you to go quickly please because my time is short.
    It is my understanding that you can contract with an SPP, 
let everybody know that is a private contract, privatization, 
you can contract with that contractual entity, but you can 
enforce various rules against them in the contract or against 
that workforce. Is that correct?
    Mr. Halinski. Yes, ma'am.
    Ms. Jackson Lee. If you saw something and you were in the 
middle of a contract it would be difficult to cancel, is that 
correct, there is a contractual relationship?
    Mr. Halinski. There is a contractual process that has to be 
done.
    Ms. Jackson Lee. That has to go through. So we can't 
compare what we suffer if we privatize or continue to privatize 
versus your ability being able to work with the professional 
public workforce under the Transportation Security 
Administration with the airports that are under your 
jurisdiction, you can focus on those individuals, is that 
correct?
    Mr. Halinski. Yes, ma'am.
    Ms. Jackson Lee. We have worked on this committee, it has 
been my cause to work on the issue of professional development 
and to make sure TSO officers have the able to rise up, that 
they are complimented as well as criticized. As I noticed the 
numbers, there has been an increase on the study in terms of 
issues dealing with time and attendance, we find that in the 
private workforce, of course, and then some people not 
following procedure.
    Are you here to suggest or have you sort-of looked and seen 
that it is not excessive beyond the workforces around the 
country or other agencies? Is that something that you attest 
to?
    Mr. Halinski. Yes, ma'am. I think when you look at this 
number of 27 percent arise, I am going to go back to the 
figured numbers. You can take any number out there and make it 
any way you want to look at it. Quite frankly, with the 27 
percent, does that mean there it has been an increase in our 
personnel, that we are doing more accountability actions of 
misconduct?
    Ms. Jackson Lee. I think that is important. Because my time 
is short I want to get you to the kind of things that you are 
doing in the interest of professional development. As I do that 
let me just cite for the record that there was an investigation 
in Newark of individuals and it was ultimately determined, when 
the facts came out, that the penalty was too high or that they 
shouldn't have been assessed because there are additional facts 
that come out. So we have to sort of balance when we review the 
facts with make sure the disciplinary action meets the facts. I 
think in Newark it found out that they were cleared of all 
wrongdoing, certain incidents that occurred.
    So my question is: Are you concerned about and do you have 
a matrix for professional development, and are you recognizing 
the important trust that the American people place in TSOs 
because they are one of the front-liners, if you will, one of 
the front-liners that deals with saving lives? They weren't in 
place on 9/11, were they? TSA was not in place on 9/11.
    Mr. Halinski. No, ma'am, it wasn't.
    Ms. Jackson Lee. So they are the front-liners. Can you say 
that your professional development includes sensitivity to the 
elderly, the disabled, as well as SOPs? Could you answer that 
please?
    Mr. Halinski. Yes, ma'am. We have made an effort to true to 
ensure that we don't have instances where we are conducting 
ourselves inappropriately. We have do ethical training, we do 
integrity training for our workforce, we have professional 
development for our workforce, and we try to be consistent in 
the way we do our mission.
    Once again I am going to say it and I think it is important 
to say: Our mission is to protect the traveling public 1.8 
million times a day. It is a big job. It sounds easy. There are 
many complexities to it, not just screening. We have air 
marshals, we have inspectors. We have to worry about foreign 
flight students. We have to worry about general aviation. We 
have a lot on our plate to secure that system. Easy mission in 
name, very complex in execution. I think we do a pretty good 
job of it, ma'am.
    Ms. Jackson Lee. Mr. Chairman, let me just indicate to Mr. 
Halinski that I think this committee is holding this hearing, 
No. 1, to contribute to the trust that the traveling public 
should have. I would believe that we could work together, 
Republicans and Democrats, and even provide an added 
professional development structure, if you will, that will, 
one, enhance the training, and I have spoken to those who have 
gone to the training in Georgia. They found it to be one of the 
best training that they could have ever had. I am not sure, I 
assume you are familiar with the class in Georgia.
    But I would like to see an opportunity for legislative 
structure of training to help, and to again reinforce that they 
are out there to save lives and to build the trust that I think 
you are due as servants of the American people, more 
importantly as officers of the Transportation Security 
Administration.
    So I yield back. I thank you, Mr. Chairman.
    Mr. Duncan. The gentlelady's time has expired.
    The Chairman will recognize the gentleman from Florida, Mr. 
Mica, for 5 minutes.
    Mr. Mica. Let me pick up on training. Mr. Halinski, are you 
aware how much we have spent on training of TSA personnel, 
TSOs?
    Mr. Halinski. Sir, I don't have that figure.
    Mr. Mica. You know it exceeds $1 billion. Are you aware 
also, sir, that we have actually trained--employed and then 
trained--recruited, employed, and trained more people than we 
have actually in the workforce, that more than that number have 
left the workforce, we spent that much money on people who are 
no longer employed. Are you aware of that?
    Mr. Halinski. Sir, like any organization that is out there, 
we have been in existence about 10 years, sir, and----
    Mr. Mica. I think you baked the cake on that one.
    Well, first of all, Mr. Halinski, you said in response to 
Mr. Thompson talked about the private screening operation in 
San Francisco and one employee who had misplaced 
inappropriately some sensitive information, you said the 
penalty would be a letter of reprimand and a 14-day suspension 
for a TSA employee. Is that correct?
    Mr. Halinski. What I said, sir, was a TSO could receive 
from a letter of reprimand to a 14-day suspension for 
mishandling of SSI material.
    Mr. Mica. Okay. Mr. Thompson wondered what had happened, so 
I checked, and that individual was suspended in 10 days, there 
was an investigation, and he was fired. I am telling you, I 
helped set up TSA, and we never intended, first of all, we 
never intended for it to be continually an all-Government 
operation. It was only set up for 2 years. But the intimidation 
and all the other things TSA has done to secure its 
bureaucracy.
    Those who are interested in helping the poor workers, if 
there is any TSA workers or union folks here, first of all, you 
should know the private screening operations can actually pay 
and retain people more. Second, that we never intended to have 
some appeal method in place where the lax enforcement that you 
would have and just mentioned by the Deputy Administrator here, 
of a letter, 14 days. We wanted those people fired. We are 
firing some of them, not all of them.
    Are you aware, Mr. Halinski, the similarity between 
Bulgaria, Romania, and Poland and the United States?
    Mr. Halinski. Sir, I lived in Europe for 11 years. I 
actually escorted you twice to Europe.
    Mr. Mica. Yes, I know. Are you aware of the similarity as 
regarding airport security?
    Mr. Halinski. Sir, I know the airports internationally 
pretty well.
    Mr. Mica. Well, those three airports are the only three in 
the Western world that still retain an all-Federal screening 
force.
    Mr. Halinski, TSA personnel, the TSOs, are they sworn law 
enforcement personnel?
    Mr. Halinski. Sir, our officers----
    Mr. Mica. Are they sworn law enforcement----
    Mr. Halinski. No, sir. They are not law enforcement 
personnel.
    Mr. Mica. They are not. Okay. They are screening. They are 
not law enforcement personnel. You know, since you all hijacked 
TSA, then you come here and tell us that you have put in place 
all of this professional organization, Mr. Pistole has opened 
two offices to ensure integrity. Now, didn't you just hear the 
testimony that there has been a 27 percent increase in the 
incidence of misconduct? Did you hear that?
    Mr. Halinski. I did hear that, sir.
    Mr. Mica. Okay. Do you think there is still something wrong 
then with the way TSA is handling this misconduct?
    Mr. Halinski. Sir, we have looked at the GAO report, we 
have taken those to task, and we are doing what the GAO asked 
us to do, sir.
    Mr. Mica. Okay. You talked about the one-point-million 
people a day. Here is something I want for the record. Your FSD 
in Orlando just bragged about, we have 55,000 people a day that 
we screen. Then he said, we have 1,200 TSA employees. Would you 
confirm for me and the committee if that is correct? If that is 
correct that means each employee is screening 50 people a day. 
Would you say that is a productive workload?
    Mr. Halinski. Sir, I don't have those figures in front of 
me----
    Mr. Mica. I just asked, could you provide that information, 
back it up to the committee?
    Ms. Jackson Lee. Mr. Chairman, Mr. Chairman, would you let 
the witness answer the question?
    Mr. Mica. Well, he doesn't have the information, Ms. Lee, 
and I didn't interrupt you. But what I would like him to do is 
respond to the committee.
    Ms. Jackson Lee. Mr. Chairman, I just would like him to be 
able to answer the question. I appreciate it.
    Mr. Duncan. If the witness would just provide the answer in 
writing to Mr. Mica's question that would be sufficient.
    Mr. Mica. Thank you. I think, again, Mr. Thompson--he is 
not here, I apologize--but he had said that they indicated it 
is a 3 to 9 percent in a GAO study extra costs for private 
screening, and that report was actually an early report. I had 
another report done, investigation, I don't know if you did 
that, Mr. Lord, did you do that one to check, and didn't they 
cook the books? That is how I termed it. But in fact you found 
that there was not correct, they did not include other factors 
as to the cost. Is that correct?
    Mr. Lord. Yes, that is correct, sir.
    Mr. Mica. Thank you. I will point out, for example, just go 
to Rochester, for example, where they have 18 TSA personnel 
that they don't need, most of them making on average $100,000 
with a private screening force. Go to San Francisco and observe 
the TSA monster overhead that they impose on top of private 
screening that you do not need.
    So, again, this is an agency that is unfair to the 
employees. We spend $1.2 billion on the administrators, and you 
have somewhere between, you can't tell, because Mr. Thompson 
said we have 47,000 screeners, you had 56,000, someone else had 
57,000, but we have 66,000 employees in TSA. So we have $1.8 
billion being spent on screeners, $1.2 billion on unnecessary 
and costly bureaucracy.
    I yield back the balance of my time. Thanks for letting me 
participate today.
    Mr. Duncan. Thank you, Mr. Mica. I appreciate you 
participating today.
    Ms. Jackson Lee. Mr. Chairman.
    Mr. Duncan. Yes, ma'am.
    Ms. Jackson Lee. I would like to take a brief second round 
please. I think everyone had a second round. I will be very 
brief, Mr. Chairman. Thank you.
    I think those were important questions that Mr. Mica 
answered. I would like for you to come back in writing, first 
of all, you will have to do the research so we can submit into 
the record, the costs to the American people of 9/11.
    My recollection, you can get those numbers I am sure 
because you have a good research arm, in terms of the impact of 
New York and its immediacy, Boston, Pennsylvania, and beyond. 
The airline industry that I understand, it is my recollection, 
was also hindered for a period of time. Just bring those 
numbers back and submit it to the complete committee please.
    Secondarily, I would like to have an assessment of the 
professional development training that each TSO member gets and 
what you plan to do going forward.
    I would also like to have a response to--a more official 
response to Mr. Thompson's letter.
    I will just ask the question on the record, are you dealing 
forthrightly with cases of discrimination, complaints of 
discrimination by your employee base, and taking those 
discrimination complaints seriously?
    Mr. Halinski. Yes, ma'am, we are.
    Ms. Jackson Lee. Do you have a process that indicates to 
personnel or to employees of a process, an open and conspicuous 
process, that they know where to go if they feel that they have 
been discriminated against where they will not suffer 
retaliation?
    Mr. Halinski. Yes, ma'am. We have an Office of Civil Rights 
and Liberties. We also put that as part of our annual training 
for all employees. We have it on our website, ma'am. We have a 
formal process. We adhere to the standards that the U.S. 
Government has to in this case, ma'am.
    Mr. Duncan. The Chairman will note that we have had a 
period of question and answering. She has asked for these items 
in writing. I have allowed a little leeway, but if we could 
wrap it up.
    Ms. Jackson Lee. I will, Mr. Chairman. Thank you very much.
    The last question I will ask is: Are you using a billion 
dollars for training, and why, and where does that money go?
    Mr. Halinski. Ma'am, there are multiple questions that were 
asked that I didn't get the opportunity to explain.
    Ms. Jackson Lee. Go ahead.
    Mr. Halinski. We have a very large workforce training over 
a period of time. You are going to spend money for training for 
that workforce.
    If you want a professional workforce that is going to keep 
and protect the transportation system, I have to be able to 
train them. I can't give you the exact amount. I will get that 
to you.
    On the question of the SPP, it is a voluntary program. It 
has been a voluntary program for years. There are 16 airports 
in the SPP program. Any airport in the United States, quite 
frankly. We don't see a major issue between either. If you talk 
about costs, we don't see a big cost difference. We don't see 
it in operations. We don't see a big difference any way. The 
point is, it is a voluntary program. Any airport can apply. 
There are 16 that have done it.
    Ms. Jackson Lee. Thank you very much. There is no great 
benefit for the SPP as saving money versus the professional 
transportation security office, is that correct? There is no 
benefit--there is no cheaper process through the SPP. You don't 
see any great savings through the SPP versus the transportation 
security.
    Mr. Halinski. Ma'am, we have tried to abide by what the GAO 
has told us. No, ma'am, we don't. We see no difference in the 
cost, ma'am.
    Ms. Jackson Lee. I thank you.
    I thank the Chairman. I yield back.
    Mr. Duncan. I thank the gentlelady.
    Since Mr. Payne showed up we are just going to continue 
with the line of questioning.
    Mr. Hudson, do you have a question?
    Mr. Hudson. I do.
    Mr. Duncan. Okay. The Chairman will recognize Mr. Hudson 
for a line of questioning.
    Mr. Hudson. Thank you, Mr. Chairman. I apologize, I wasn't 
prepared for the next round, but I appreciate this opportunity.
    I guess my question, Mr. Halinski, is: How is customer 
satisfaction measured by TSA, and the customer being the flying 
public? Do you have any metrics by which you are measuring 
this?
    Mr. Halinski. Sir, I guess the best metric I am going to 
use is the one that was done by the Gallup Poll last year, and 
it is on-line, anybody that wants to look at it, where over 60 
percent of those polled, the traveling public, say that they 
were--at least felt that TSA was satisfactory to good in their 
operations. I think that is probably the best metric we can do 
for the traveling public.
    We have customer service reps now at the airport. We are 
making an effort in our training. We are making an effort in 
our engagement with our workforce to ensure that they do good 
public relations.
    We are going to have the one-off, sir. I am going to be 
straight up with you. I am going to have somebody that is going 
to do something stupid, and it is going to get in the press and 
it will probably make 20 rounds in the press. But for every one 
of those stories, sir, I will tell you, there is probably 10 
more great stories about what our people do.
    Mr. Hudson. I appreciate that. I guess the question is: 
Should there be some formal process where you set up metrics 
where you can judge the customer satisfaction? I believe what 
you are telling me, that there are a lot of good actors there, 
a lot of people who are dedicated to the job, committed to 
their mission. But if there is a way to measure this, it may 
bear out and be a good tool to show the American people that a 
lot of folks who travel do have a good experience. It might be 
useful to measure that. It might be helpful to sort-of identify 
where the problems are in the public perception. That is just 
something you may want to think about.
    Mr. Halinski. We will work on that, sir.
    Mr. Hudson. Thank you.
    Mr. Chairman, I yield back.
    Mr. Duncan. The Chairman thanks the gentleman from North 
Carolina and the Chairman of the Transportation Security 
Subcommittee for being part of this today.
    The Chairman will now recognize the gentleman from New 
Jersey, Mr. Payne, for 5 minutes.
    Mr. Payne. Thank you, Mr. Chairman. Good morning, and I 
apologize for my getting here a bit late, but I felt it was 
important that I did show up and get the questions I have on 
the record.
    This is, you know, basically for all the witnesses. You 
know, I have met with TSOs and the managers at Newark Liberty 
Airport. I found them to be really dedicated to their job and 
service, and they strive to keep our aviation system secure on 
a daily basis. They tell me, too, that there are many instances 
where TSOs are disciplined for doing the very thing that they 
were trained to do. So do you believe that the training of the 
TSOs has kept up with the disciplinary actions and procedures?
    Mr. Halinski.
    Mr. Halinski. Sir, I believe that we have been consistent 
in that. In specific cases, I am not sure, sir, if there were 
specifics I could answer that. But I believe that we do have a 
consistent policy. I believe that we have consistent training.
    One thing I would say is, we do shift some of our 
procedures on a regular basis, and that is based on threat. We 
are an organization that bases our operations on threat. What 
was the standard procedure last year may not be a standard 
procedure this year. If somebody is following a procedure 
because they weren't up on the newest procedure, it is based on 
threat, but they may be held accountable for that, sir. That 
may be an inconsistency, sir.
    Mr. Payne. Right. But if they haven't been trained for it, 
how can they be held accountable for it?
    Mr. Halinski. Well, everybody, if we make a change in the 
policy, sir, or a change in the standard operating procedure, 
everybody is retrained on it. But I am going to go back to 
human nature, sir. Everybody is not on their game 100 percent 
of the time, unfortunately. In those cases we will take 
appropriate action for that, and that is what this whole 
hearing has been about, and we are committed to doing that. Our 
people generally don't do that, sir. I mean, there are a lot of 
numbers that were thrown around out here today, but by and 
large we do a good job every single day, sir.
    Mr. Payne. Okay.
    Mr. Lord.
    Mr. Lord. That is a difficult question to answer lacking 
specifics, but I do know that TSA has invested a substantial 
amount of money and resources and time in training staff. I 
think it is important to note the SOPs do change. For example, 
the enhanced pat-down, when that went into effect, I think not 
only were TSA employees, but the traveling public, you know, 
they had to make a--they had to adjust to that as well. So I 
think that is important to note, the procedures change. People 
have to be trained in that. Sometimes there is a lag between 
when they master that and how they actually apply it in 
practice. So to me it is not surprising that some staff may 
object to that occasionally.
    Mr. Payne. Okay.
    Ma'am.
    Ms. Outten-Mills. The OIG, we did conduct one review of the 
Honolulu airport in 2012, where we were coming up with reasons 
why certain screeners may have not been screening as they 
should have. One of the reasons that that could possibly have 
been was because of the changing SOPs, and perhaps TSOs weren't 
aware, fully aware of what that policy entailed. We did make a 
recommendation to TSA to ensure that staff were aware of SOPs 
that changed based on the rate of flights coming in, and they 
have worked to do that.
    Mr. Payne. Okay. Let's see. In your opinion, do you believe 
that the standard disciplinary actions or additional training, 
or some combination thereof, is the most effective way in 
disciplining TSOs? You know, I guess in terms of the 
procedures, you have to be up on them because this is 
important. But if you find someone that might have made a 
mistake or been lacking in one of those areas, don't you feel 
that prior to disciplining them that maybe making sure that 
they understand what their obligation is, is the best way to 
go?
    Mr. Halinski. Sir, I would say that when we train our 
workforce, one of the ideas is communication, constant 
communication with the workforce if there are changes. If there 
is a failure with one of our TSOs in some area like that we try 
to take remedial action. One of the differences now with our 
table of offenses and penalties is, we have enough leeway that, 
based on what the penalty is, that it can be from a low end to 
a high end depending on what the mitigating circumstances is 
for there, for that particular offense. Consistent training, 
consistent messaging is what will get them to where they need 
to be.
    We try to be consistent in the way any kind of misconduct 
is handled. That is why we created an appeals board for our 
TSOs with our Office of Professional Responsibility, and they 
have an automatic 7-day period to write an appeal for anything 
that is handed down if they feel that the punishment did not 
meet what they thought that they did. There is an appeal 
process. In some cases, about 15 percent, we find that actually 
it has been lowered because, with the circumstances and the 
appeals, it has worked to their benefit in that case because we 
didn't have all the facts.
    I am going to go back to what I said earlier, sir. By and 
large, if we absolutely catch somebody doing something they 
shouldn't be doing, we take very strong action. But the 
presumption is people are innocent until they are proven 
guilty, and we have to go with that, sir, because that is the 
way we do business.
    Mr. Payne. Okay. Thank you. I see my time is up. There was 
another question, but I will submit it to the committee, in 
terms of the difference between the private contractors and how 
our TSOs are disciplined, and the oversight that we have over 
the private contractors. I think there is a discrepancy in the 
manner in which the two entities operate, but I will submit 
that to the committee. Thank you. I yield back.
    Mr. Duncan. I thank the gentleman from New Jersey for his 
questioning and for submitting written questions. We ask the 
witnesses will respond to those written questions in a timely 
manner.
    First off, in wrapping up the hearing today, I want to 
thank Mr. Lord and the GAO for your report and for your 
continued work in investigating not only TSA, but all of the 
agencies that GAO works with Congress the oversight capacity 
on.
    I also want to thank the gentlelady, Ms. Outten-Mills, for 
your involvement in the Inspector General's office, because you 
are having to deal with and investigate some of the things that 
go on. So I certainly appreciate your service to our country.
    Mr. Halinski, in no way did the line of questioning today 
question your service to our country, and I understand the 
challenges that you face in trying to keep our air travel 
secure. America is counting on you. America is counting on TSA 
to stop any sort of 9/11-type attack and make sure that this 
country and the homeland is secure. So I appreciate what you 
do, and I appreciate the service.
    In our oversight capacity, we have oversight over DHS and 
TSA. We expect that TSA and DHS will have oversight over the 
private contractors as well. I am interested to find out more 
about that oversight relationship.
    I don't know that we have the oversight ability to bring 
the private contractors in and question them the way we have 
questioned you today. But somebody needs to as well, because 
America is counting on them as well if they are acting in that 
capacity as security screeners. So this is a multi-faceted and 
multi-layered approach to keeping the country safe. I fully 
understand that.
    I want to make sure that, and I think America expects, that 
if someone has violated either the civil liberties, or slept on 
the job, didn't show up for work, delayed their air travel 
because a checkpoint not being open, or someone has stolen from 
the American public, the traveling Americans, that they will be 
disciplined. I appreciate your responses to those questions 
today.
    So I want to thank the witnesses for your valuable 
testimony and the Members for their questions. I thought we had 
very good participation today, even from some Members not on 
the committee. The Members of the committee do have additional 
questions, as you have heard, from both Ms. Jackson Lee, from 
Mr. Mica, and from Mr. Payne, and we ask you respond to those 
in writing in a timely fashion.
    So without objection, the subcommittees will stand 
adjourned.
    [Whereupon, at 12:12 p.m., the subcommittees were 
adjourned.]

                                 <all>

</pre></body></html>
